1a
FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNICOLORS, INC., a
California Corporation,
Plaintiff-Appellee,
v.
H&M HENNES &
MAURITZ, L.P., a New
York limited partnership,
Defendant-Appellant.

Nos. 18-56253
18-56548
D.C. No.
2:16-cv-02322AB-SK

OPINION

Appeal from the United States District Court
for the Central District of California
Andre Birotte, Jr., District Judge, Presiding
Submitted March 30, 2020*
Pasadena, California
Filed May 29, 2020
Before: Carlos T. Bea and Bridget S. Bade, Circuit
Judges, and Jon P. McCalla,** District Judge.

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).
*

The Honorable Jon P. McCalla, United States District Judge
for the Western District of Tennessee, sitting by designation.

**

2a
Opinion by Judge Bea
SUMMARY***
Copyright
The panel reversed the district court’s judgment
after a jury trial and award of attorneys’ fees in favor
of the plaintiff in a copyright infringement action, and
remanded for further proceedings concerning copyright registration.
The district court denied defendant’s motion for
judgment as a matter of law on the ground that plaintiff’s copyright registration was invalid because it secured the registration by including known inaccuracies in its application for registration.
The panel held that under 17 U.S.C.
§ 411(b)(1)-(2), once a defendant alleges that (1) a
plaintiff’s certificate of registration contains inaccurate information; (2) “the inaccurate information was
included on the application for copyright registration;” and (3) the inaccurate information was included
on the application “with knowledge that it was inaccurate,” a district court is then required to submit a
request to the Register of Copyrights “to advise the
court whether the inaccurate information, if known,
would have caused [it] to refuse registration.” In other
This summary constitutes no part of the opinion of the court.
It has been prepared by court staff for the convenience of the
reader.
***

3a
words, courts may not consider in the first instance
whether the Register of Copyrights would have refused registration due to the inclusion of known inaccuracies in a registration application.
The panel held that the district court erred in imposing an intent-to-defraud requirement for registration invalidation. The district court further erred in
concluding that plaintiff’s application for copyright
registration of a collection of works did not contain inaccuracies. The panel held that single-unit registration requires that the registrant first published a collection of works in a singular, bundled collection. The
panel also concluded that the undisputed evidence adduced at trial showed that plaintiff included the inaccurate information with knowledge that it was inaccurate. Accordingly, the district court was required to
request the Register of Copyrights to advise the court
whether the inaccurate information, if known, would
have caused the Register to refuse registration. The
panel reversed and remanded for the district to complete this statutorily required request.
COUNSEL
Staci Jennifer Riordan, Aaron Brian, and Dale A.
Hudson, Nixon Peabody LLP, Los Angeles, California,
for Defendant-Appellant.
Stephen M. Doniger, Scott Alan Burroughs, and Trevor W. Barrett, Doniger / Burroughs, Venice, California, for Plaintiff-Appellee.

4a
OPINION
BEA, Circuit Judge:
This is a copyright-infringement action brought
by Unicolors, Inc. (“Unicolors”), a company that creates designs for use on textiles and garments, against
H&M Hennes & Mauritz L.P. (“H&M”), which owns
domestic retail clothing stores. Unicolors alleges that
a design it created in 2011 is remarkably similar to a
design printed on garments that H&M began selling
in 2015. The heart of this case is the factual issue
whether H&M’s garments bear infringing copies of
Unicolors’s 2011 design. Presented with that question, a jury reached a verdict in favor of Unicolors,
finding the two works at least substantially similar.
On appeal, however, we must decide a threshold issue
whether Unicolors has a valid copyright registration
for its 2011 design, which is a precondition to bringing
a copyright-infringement suit.
I
Unicolors’s business model is to create artwork,
copyright it, print the artwork on fabric, and market
the designed fabrics to garment manufacturers.
Sometimes, though, Unicolors designs “confined”
works, which are works created for a specific customer. This customer is granted the right of exclusive
use of the confined work for at least a few months,
during which time Unicolors does not offer to sell the
work to other customers. At trial, Unicolors’s President, Nader Pazirandeh, explained that customers
“ask for privacy” for confined designs, in respect of
which Unicolors holds the confined designs for a “few

5a
months” from other customers. Mr. Pazirandeh added
that his staff follows instructions not to offer confined
designs for sale to customers generally, and Unicolors
does not even place confined designs in its showroom
until the exclusivity period ends.
In February 2011, Unicolors applied for and received a copyright registration from the U.S. Copyright Office for a two-dimensional artwork called
EH101, which is the subject of this suit. Unicolors’s
registration—No. VA 1-770-400 (“the ‘400 Registration”)—included a January 15, 2011 date of first publication. The ‘400 Registration is a “single-unit registration” of thirty-one separate designs in a single registration, one of which designs is EH101. The name
for twenty-two of the works in the ‘400 Registration,
like EH101, have the prefix “EH”; the other nine
works were named with the prefix “CEH.” Hannah
Lim, a Unicolors textile designer, testified at trial
that the “EH” designation stands for “January 2011,”
meaning these works were created in that month. Ms.
Lim added that a “CEH” designation means a work
was designed in January 2011 but was a “confined”
work.
When asked about the ‘400 Registration at trial,
Mr. Pazirandeh testified that Unicolors submits collections of works in a single copyright registration “for
saving money.” Mr. Pazirandeh added that the first
publication date of January 15, 2011 represented
“when [Unicolors] present[ed] [the designs] to [its]
salespeople.” But these salespeople are Unicolors employees, not the public. And the presentation took
place at a company member-only meeting. Following
the presentation, according to Mr. Pazirandeh,

6a
Unicolors would have placed non-confined designs in
Unicolors’s showroom, making them “available for
public viewing” and purchase. Confined designs, on
the other hand, would not be placed in Unicolors’s
showroom for the public at large to view.
H&M owns and operates hundreds of clothing retail stores in the United States. In fall 2015, H&M
stores began selling a jacket and skirt made of fabric
bearing an artwork design named “Xue Xu.” Upon discovering H&M was selling garments bearing the Xue
Xu artwork, Unicolors filed this action for copyright
infringement, alleging that H&M’s sales infringed
Unicolors’s copyrighted EH101 design. Unicolors alleges that the two works are “row by row, layer by
layer” identical to each other.
The case proceeded to trial, at which a jury returned a verdict in Unicolors’s favor, finding Unicolors owned a valid copyright in the EH101 artwork,
H&M infringed on that copyright by selling the contested skirt and jacket, and H&M’s infringement was
willful. The jury awarded Unicolors $817,920 in profit
disgorgement damages and $28,800 in lost profits.
H&M filed a renewed motion for judgment as a
matter of law, or in the alternative, for a new trial.
The district court denied H&M’s renewed motion for
judgment as a matter of law, but conditionally
granted H&M’s motion for a new trial subject to Unicolors accepting a remittitur of damages to
$266,209.33. Unicolors accepted the district court’s
remittitur and the district court entered judgment
against H&M accordingly. Unicolors subsequently
moved for attorneys’ fees and costs, which the district

7a
court awarded in the amounts of $508,709.20 and
$5,856.27, respectively. This appeal of both the entry
of judgment and award of attorneys’ fees in favor of
Unicolors followed.
II
“To establish infringement, two elements must be
proven: (1) ownership of a valid copyright, and (2) copying of constituent elements of the work that are original.” Feist Publ’ns, Inc. v. Rural Tel. Serv. Co., 499
U.S. 340, 361 (1991). As to ownership, a registration
certificate issued by the U.S. Register of Copyrights
constitutes prima facie evidence of the validity of a
plaintiff’s copyright. 17 U.S.C. § 410(c).
Although proper registration benefits copyrightinfringement plaintiffs by imbuing their copyright
with a presumption of validity, proper registration is
also a burden of sorts, as it is “a precondition to filing
an action for copyright infringement.” Gold Value Int’l
Textile, Inc. v. Sanctuary Clothing, LLC, 925 F.3d
1140, 1144 (9th Cir. 2019); see 17 U.S.C. § 411(a).
Proper registration, of course, is not a precondition to
copyright protection. 17 U.S.C. § 408(a). But the Copyright Act expressly prohibits copyright owners from
bringing infringement actions without first properly
registering their work. Id. § 411(a). Whether a copyright is properly registered is rarely disputed, because
the mere receipt of a registration certificate issued by
the Register of Copyrights ordinarily satisfies the
Copyright Act’s registration requirement. Id.
§ 411(b)(1). But possession of a registration certificate
does not satisfy the Copyright Act’s registration requirement if the registrant secured the registration

8a
by knowingly including inaccurate information in the
application for copyright registration that, if known
by the Register of Copyrights, would have caused it to
deny registration. Id.
In practice, once a defendant alleges that (1) a
plaintiff’s certificate of registration contains inaccurate information; (2) “the inaccurate information was
included on the application for copyright registration”; and (3) the inaccurate information was included
on the application “with knowledge that it was inaccurate,” a district court is then required to submit a
request to the Register of Copyrights “to advise the
court whether the inaccurate information, if known,
would have caused [it] to refuse registration.” Id.
§ 411(b)(1)-(2). In other words, courts may not consider in the first instance whether the Register of Copyrights would have refused registration due to the inclusion of known inaccuracies in a registration application.
Here, following the unfavorable verdict, H&M
filed a renewed motion for judgment as a matter of
law that contended, in relevant part, that Unicolors’s
‘400 Registration covering the EH101 work was invalid because Unicolors secured the registration by including known inaccuracies in its application for registration. In particular, H&M noted that Unicolors
used a single copyright registration to register thirtyone separate works, one of which was EH101. But to
register a collection of works as a “single unit” as Unicolors did, H&M maintained that the works must
have been first sold or offered for sale in some integrated manner. And because the undisputed evidence
adduced at trial showed that Unicolors included in

9a
the ‘400 Registration at least nine confined works that
were sold separately and exclusively to individual
customers, H&M argued that the collection of works
identified in the ‘400 Registration were not first sold
together and at the same time. In turn, H&M contended the district court should find the ‘400 Registration invalid and enter judgment in favor of H&M.
The district court rejected H&M’s argument for
invalidating the ‘400 Registration for two reasons.
First, the district court held that invalidation required a showing at trial that Unicolors intended to
defraud the Copyright Office, and found no evidence
introduced at trial showed such an intent. Second, the
district court held that although Unicolors may have
marketed and sold various works included in the ‘400
Registration separately, that did not mean all of the
works were not first made available to the public—
i.e., published—on the same day.
Both the district court’s reasons for denying H&M
judgment as a matter of law are flawed. To be sure,
several opinions from this Court have implied that
there is an intent-to-defraud requirement for registration invalidation. See L.A. Printex Indus., Inc. v.
Aeropostale, Inc., 676 F.3d 841, 853-54 (9th Cir. 2012);
see also Lamps Plus, Inc. v. Seattle Lighting Fixture
Co., 345 F.3d 1140, 1145 (9th Cir. 2003) (stating that
inaccuracies “do not invalidate a copyright … [unless]
the claimant intended to defraud the Copyright Office
by making the misstatement”) (quoting Urantia
Found. v. Maaherra, 114 F.3d 955, 963 (9th Cir.
1997)); Three Boys Music Corp. v. Bolton, 212 F.3d
477, 486–87 (9th Cir. 2000) (same), overruled on other
grounds by Skidmore v. Led Zeppelin, 952 F.3d 1051

10a
(9th Cir. 2020) (en banc); Cooling Sys. & Flexibles,
Inc. v. Stuart Radiator, Inc., 777 F.2d 485, 487 (9th
Cir. 1985) (“Absent fraud, a misstatement or clerical
error in the registration application … will not invalidate the copyright ….”) (internal quotation marks
omitted), overruling on other grounds recognized by
Apple Computer, Inc. v. Microsoft Corp., 35 F.3d 1435,
1448 (9th Cir. 1994); 2 M. Nimmer & D. Nimmer,
Nimmer on Copyright § 7.20[B][1] (2019). But we recently clarified that there is no such intent-to-defraud
requirement. See Gold Value Int’l Textile, Inc., 925
F.3d at 1147 (9th Cir. 2019).
The district court further erred in concluding that
Unicolors’s application for copyright registration did
not contain inaccuracies despite the inclusion of confined designs because single-unit registration requires merely that all works identified in the application be published on the same date. Under the Copyright Act, an author may register a collection of published works “as a single work,” so that the registrant
need pay only one filing fee. 37 C.F.R. § 202.3(b)(4)
(effective January 24, 2011).1 To register such a collection of published works, the works must have been
“included in a single unit of publication.” Id.
§ 202.3(b)(4)(i)(A) “Publication” under the Copyright
Act is defined as the initial “distribution” or “offering
to distribute” the “work to the public by sale or other
transfer of ownership, or by rental, lease, or lending.”
The current version of § 202.3(b)(4) refers to registration “as
one work” rather than “as a single work.” We use the language
of the regulation’s version effective January 24, 2011, which is
the operative version in this case.
1

11a
17 U.S.C. § 101. As we have explained, publication includes when copies of a work are “made available to
the general public … even if a sale or other such disposition does not in fact occur.” Am. Vitagraph, Inc. v.
Levy, 659 F.2d 1023, 1027 (9th Cir. 1981) (quoting 1
M. Nimmer & D. Nimmer, Nimmer on Copyright
§ 4.04 at 4-18 to 4-19 (1978)). The confined designs,
however, were not placed in the showroom for sale at
the same time. And this court has never previously
addressed what it means to publish multiple works as
a “single unit.”2
We conclude that the plain meaning of “single
unit” in § 202.3(b)(4)(i)(A) requires that the registrant
first published the collection of works in a singular,
bundled collection. The relevant language of the regulation provides, in full:
For the purpose of registration on a single application and upon payment of a single registration fee, the following shall be considered a
single work:
(A) In the case of published works: all copyrightable elements that are otherwise recognizable as self-contained works, that are

The Third Circuit discussed the single-unit requirement in a
published opinion, but that case provides no help to the matter
at hand. See Kay Berry, Inc. v. Taylor Gifts, Inc., 421 F.3d 199,
204-06 (3d Cir. 2005) (mentioning the single-unit registration
option and concluding the individual works need not be “related,” but not explaining what it means for works to be part of
a “single unit”).
2

12a
included in a single unit of publication, and in
which the copyright claimant is the same[.]
37 C.F.R. § 202.3(b)(4)(i)(A) (emphasis added). The
plain meaning of the word “single” unsurprisingly
commands a sense of singularity. See Single, Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/single (defining “single” as “unaccompanied by others”). The plain meaning of “unit” is
no different. See Unit, Merriam-Webster Dictionary,
https://www.merriam-webster.com/dictionary/unit
(defining “unit” as “a single thing, person, or group
that is a constituent of a whole”). Together, the two
words suggest that a “single unit of publication” refers
to some singular, bundled item that contains all
works identified in the registration.
The proverbial toolkit of statutory interpretation
reinforces that a collection of published works that
make up “a single unit of publication” must have been
first published as part of some singular, bundled collection. The principle of noscitur a sociis—”it is known
by its associates” or “birds of a feather flock together”—instructs that words in statutes are given
more precise content by neighboring words. See Life
Techs. Corp. v. Promega Corp., 137 S. Ct. 734, 740
(2017); see also Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts, 19598 (2012) (describing noscitur a sociis and explaining
its meaning as “birds of a feather flock together”).
Here, § 202.3(b)(4)(i)(A) refers to “copyrightable elements that are otherwise recognizable as self-contained works, which are included in a single unit of
publication.” (emphasis added). By referring to “elements” that are “otherwise … self-contained works,”

13a
the regulation unambiguously contemplates that a
“single-unit of publication” does not cover separate
self-contained works, but instead covers the unification of such works that otherwise could be self- contained.3
For these reasons, we hold that a collection of
works does not qualify as a “single unit of publication”
unless all individual works of the collection were first
published as a singular, bundled unit. Therefore, it is
an inaccuracy for a registrant like Unicolors to register a collection of works (such as the works identified
in the ‘400 Registration) as a single-unit publication
when the works were not initially published as a singular, bundled collection. At a minimum, the confined
works included in the ‘400 Registration were initially
made available only to individual, exclusive customers.

Even if the term “single unit” were ambiguous, we would hold
the term has the same meaning. If it were ambiguous, we would
look to how the U.S. Copyright Office has defined the term in its
internal manual, Compendium of Copyright Office Practices
(“Compendium”), which is entitled to Skidmore deference. Inhale, Inc. v. Starbuzz Tobacco, Inc., 755 F.3d 1038, 1041-42 &
n.2 (9th Cir. 2014). The Compendium details that the “single
unit of publication” option applies to a collection of published
works “first distributed to the public in the packaged unit.” Compendium § 1103. In other words, a single unit of publication refers to separately copyrightable works “that are physically bundled together and distributed to the public as a unit, such as a
board game containing instructions, a game board, and sculpted
playing pieces.” Id. The Compendium’s definition for “single
unit” thus aligns with what we ascribe as its unambiguous and
plain meaning.
3

14a
The undisputed evidence adduced at trial further
shows that H&M included the inaccurate information
“with knowledge that it was inaccurate.” 17 U.S.C.
§ 411(b)(1)(A). And the knowledge inquiry is not
whether Unicolors knew that including a mixture of
confined and non-confined designs would run afoul of
the single-unit registration requirements; the inquiry
is merely whether Unicolors knew that certain designs included in the registration were confined and,
therefore, were each published separately to exclusive
customers. See Gold Value Int’l Textile, Inc., 925 F.3d
at 1147. At trial, Unicolors admitted to having such
knowledge.
Although Unicolors’s application for the ‘400 Registration contained known inaccuracies, that does not
mean H&M was entitled to judgment as a matter of
law. Rather, the district court was required to “request the Register of Copyrights to advise the court
whether the inaccurate information, if known, would
have caused the Register … to refuse registration.”
17 U.S.C. § 411(b)(2). Because the district court did
not make the statutorily required request, we remand
the case so that the district court can complete this
requirement before deciding whether Unicolors’s registration is invalid, which would require dismissing
Unicolors’s claims and entering judgment in favor of
H&M.
III
For the foregoing reasons, we reverse the district
court’s entry of judgment and award of attorneys’ fees
in favor of Unicolors and remand to the district court
with instructions to submit an inquiry to the Register

15a
of Copyrights asking whether the known inaccuracies
contained in the ‘400 Registration application detailed above, if known to the Register of Copyrights,
would have caused it to refuse registration. Because
the validity of Unicolors’s copyright registration is a
threshold issue, we do not consider here the many
other questions presented on appeal.4 In the event the
district court determines on remand—and after submitting the necessary inquiry to the Register of Copyrights—that Unicolors has a valid copyright registration in EH101, this panel retains jurisdiction over
any subsequent appeal to review that determination
and, if necessary, to decide remaining questions presented in this appeal.
REVERSED AND REMANDED.

As the Supreme Court has explained, the Copyright Act’s registration requirement is not a jurisdictional requirement; rather,
it is a claim-processing rule. Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 163-66 (2010). That does not change that Unicolors’s
compliance with the Copyright Act’s registration requirement is
a threshold matter. As the Supreme Court recently clarified, a
claim-processing rule can still be “mandatory,” which means
“that a court must enforce the rule if a party ‘properly raise[s]’
it.” Fort Bend Cty. v. Davis, 139 S. Ct. 1843, 1849 (2019) (alteration in original) (quoting Eberhart v. United States, 546 U.S. 12,
19 (2005) (per curiam)). The Fort Bend County Court even noted
that “the Copyright Act’s requirement that parties register their
copyrights” is one such mandatory claim-processing rule. Id.
Here, the parties do not dispute that H&M properly raised its
challenge to Unicolors’s compliance with the Copyright Act’s registration requirement.
4

16a
Case No. 2:16-cv-02322-AB-SK
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.
Plaintiff,
vs.
H & M HENNES & MAURITZ, L.P.,
Defendant.
SPECIAL VERDICT FORM

17a
SPECIAL VERDICT FORM
We, the Jury, answer the questions submitted to us
in regard to Unicolors, Inc.’s claims in this action as
follows:
1. Do you find that Unicolors, Inc. owns a valid copyright of the artwork at issue?
YES ___X___

NO _______

If your answer to Question 1 is “Yes” please proceed
to Question 2.
If your answer to Question 1 is “No” please sign and
date this form.
2. Do you find that H&M Hennes & Mauritz L.P. infringed on the copyright of Unicolors, Inc. in the
artwork by selling garments bearing, a modified
copy of Unicolors, Inc.’s artwork?
YES___X_____ NO________
If your answer to Question 2 is “Yes” please proceed
to Question 3.
If your answer to Question 2 is “No” please answer
Question 2a, and then sign and date this form.
2a.

Do you find that H&M Hennes & Mauritz
L.P. obtained the design on its garments
from an entity that independently created
the design?

YES__________ NO________

18a
3. Do you find that the infringement by H&M Hermes & Mauritz L.P. was willful or reckless?
YES____X____ NO________
4. For what amount of profit disgorgement damages, if any, do you find H&M Hennes & Mauriz
L.P. liable to Unicolors, Inc.?
$__817,920_____________
5. For what amount of Unicolors’ actual damages,
including lost profits, if any, do you find H&M
Hennes & Mauritz L.P. liable?
$__28,800______________
Please sign and date this form.
DATED: _12/7/17___

SIGNED __REDACTED__
U.S.D.C. PRESIDING JUROR

Please deliver this verdict form to the bailiff after it is completed and signed.

19a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., Case No. 2:16-cv-02322-AB
(SKx)
v.

Plaintiff,

ORDER GRANTING
PLAINTIFF’S
MOTION FOR
ATTORNEYS’
FEES AND COSTS

H & M HENNES &
MAURITZ, L.P,
Defendant.
On August 24, 2018, Plaintiff Unicolors, Inc.
(“Unicolors”) filed a motion for attorneys’ fees and
costs. Dkt. No. 270. Defendant H & M Hennes & Mauritz, L.P. (“H&M LP”) opposed the motion, and Unicolors filed a reply. Dkt. Nos. 272, 273. The Court
heard oral arguments regarding the motion on September 21, 2018. For the following reasons, the Court
GRANTS Unicolors’ motion.
I.

BACKGROUND

On August 26, 2016, Unicolors filed a First
Amended Complaint (“FAC”) alleging that H&M LP
engaged in copyright infringement, vicarious copyright infringement, and contributory copyright infringement. Dkt. No. 25. After H&M LP answered the

20a
FAC, both parties moved for summary judgment, and
the Court denied those motions. Dkt. Nos. 64, 80, 180,
202.
From December 5 through December 7, 2017, the
Court held a jury trial on Unicolors’ claims. After deliberation, the jury returned a verdict in Unicolors’ favor. The jury found that Unicolors owned a valid copyright in the artwork at issue, that H&M LP infringed
on that copyright, and that H&M LP’s infringement
was willful. Dkt. No. 229. The jury awarded Unicolors
$817,920 in profit disgorgement damages and $28,800
in lost profits. Id.
H&M LP then moved for judgment as a matter of
law or a new trial. Dkt. No. 247. The Court denied
H&M LP’s motion for judgment as a matter of law but
partially granted its motion for a new trial. Dkt. No.
262. The Court found no reason for a new trial on
H&M LP’s liability for copyright infringement, but determined that the jury issued an excessive damages
award. Id. at pp. 11, 20. It therefore granted H&M
LP’s motion for a new trial on the issue of damages,
subject to Unicolors accepting a remittitur of damages
to $266,209.33. Id. at p. 21. Unicolors accepted the remittitur, and the Court entered judgment. Dkt. Nos.
263, 267.
Unicolors now moves for attorneys’ fees and costs
under 17 U.S.C. § 505. It seeks $508,709.20 in attorneys’ fees and $5,856.27 in costs. H&M LP opposes
Unicolors’ motion.

21a
II.
ATTORNEYS’ FEES UNDER THE COPYRIGHT ACT
The Copyright Act provides that in a copyright action, “the court in its discretion may allow the recovery of full costs by or against any party other than the
United States,” including “a reasonable attorney’s fee
to the prevailing party as part of the costs.” 17 U.S.C.
§ 505. An award of attorneys’ fees under the Copyright Act is a matter of discretion, not of right. Fogerty
v. Fantasy, Inc. (“Fogerty I”), 510 U.S. 517, 533 (1994).
Under § 505, “[p]revailing plaintiffs and prevailing
defendants are to be treated alike, but attorney’s fees
are to be awarded to prevailing parties only as a matter of the court’s discretion.” Id. at 534.
In deciding whether to award fees, “[d]istrict
courts should consider, among other things, [(1)] the
degree of success obtained; [(2)] frivolousness;
[(3)] motivation; [(4)] objective unreasonableness
(both in the factual and legal arguments in the case);
and [(5)] the need in particular circumstances to advance considerations of compensation and deterrence.” Historical Research v. Cabral, 80 F.3d 377,
379 n.1 (9th Cir. 1996). Those factors are merely
guideposts in the exercise of the court’s “equitable discretion,” and “courts are not limited to considering
them.” Fantasy, Inc. v. Fogerty (“Fogerty II”), 94 F.3d
553, 559 (9th Cir. 1996). Indeed, “[c]ourts have
awarded costs for copyright claims based on a single
factor.” Robinson v. Lopez, No. CV 03-3732 LGB
(PLAx), 2003 WL 23162906, at *2 (C.D. Cal. Nov. 24,
2003).

22a
A court’s discretion to award attorneys’ fees under
the Copyright Act “is not cabined by a requirement of
culpability on the part of the losing party.” Fogerty II,
94 F.3d at 555. “Within this framework courts are
given wide latitude” to award or deny attorneys’ fees,
even when a party acted reasonably or in good faith.
Entertainment Research Group, Inc. v. Genesis Creative Group, Inc., 122 F.3d 1211, 1229 (9th Cir. 1997);
accord Fogerty II, 94 F.3d at 556 (finding a fee award
proper under the Copyright Act even though the “lawsuit was neither frivolous nor prosecuted in bad
faith”).
III.

DISCUSSION
A.
Unicolors’ Entitlement to Attorneys’ Fees

In opposing Unicolors’ motion, H&M LP argues
that Unicolors should not recover attorneys’ fees because Unicolors was not the prevailing party in the
case. It also contends that the relevant factors weigh
against a fee award.
1.

Prevailing Party

The Copyright Act only authorizes an award of attorneys’ fees to a “prevailing party.” 17 U.S.C. § 505.
Generally, a plaintiff who obtains a judgment in its
favor is a prevailing party. See Buckhannon Bd. &
Care Home, Inc. v. W. Virginia Dep’t of Health & Human Res., 532 U.S. 598, 603 (2001) (noting that Supreme Court cases have adopted the view that a prevailing party is “a party in whose favor a judgment is
rendered, regardless of the amount of damages

23a
awarded”) (quotations omitted); Brighton Collectibles,
Inc. v. Pedre Watch Co., No. 11CV00637 AJB (WVG),
2014 WL 29008, at *4 (S.D. Cal. Jan. 2, 2014) (holding
that the plaintiff was the prevailing party because
“[b]y a jury decree, [the defendant] was found liable to
[the plaintiff] for infringement”).
Here, Unicolors prevailed on its copyright infringement claim. After trial, the jury returned a special verdict finding that H&M LP willfully infringed
Unicolors’ copyright. While the Court reduced the
jury’s damages award to $266,209.33, Unicolors still
secured a fairly significant monetary judgment. Because Unicolors obtained damages and a finding of
copyright infringement, Unicolors was the prevailing
party in this matter.
H&M LP argues that, despite the jury’s verdict
and the Court’s judgment, it was the prevailing party,
not Unicolors. Essentially, H&M LP argues that it
prevailed because Unicolors recovered significantly
less damages than it initially sought. But a plaintiff
who succeeds on a copyright infringement claim is a
prevailing party even if it recovers less than it originally requested. See Wall Data Inc. v. Los Angeles Cty.
Sheriff’s Dep’t, 447 F.3d 769, 787 (9th Cir. 2006) (affirming the district court’s determination that the
plaintiff was a prevailing party “even though [the
plaintiff’s] ultimate recovery was less than that which
it originally sought”). The amount of Unicolors’ recovery therefore does not alter its status as a prevailing

24a
party.1 Unicolors is the prevailing party for purposes
of 17 U.S.C. § 505.
2.
Factors for Awarding Discretionary Attorneys’ Fees
Next, the Court addresses the five factors courts
examine in exercising their discretion to award attorneys’ fees: “(1) the degree of success obtained, (2) frivolousness, (3) motivation, (4) [the] reasonableness of
[the] losing party’s legal and factual arguments, and
(5) the need to advance considerations of compensation and deterrence.” Wall Data, 47 F.3d at 787.
a. Degree of Success Obtained
The first factor, the degree of success obtained, favors an award of attorneys’ fees. Unicolors obtained a
jury verdict that its copyright was valid, that H&M
LP infringed the copyright, and that H&M LP’s infringement was willful. The jury found in Unicolors’
favor on each question posed to it. And, even after the
Court reduced Unicolors’ damages, it still secured a
significant award of $266,209.33. The degree of success obtained therefore weighs in favor of a fee award.

Similarly, H&M LP claims that it prevailed because the Court
reduced Unicolors’ damages award after post-trial briefing. That
H&M LP prevailed on one motion, however, does not mean that
it is the prevailing party in the litigation.
1

25a
b. Frivolousness and Objective Unreasonableness
Unicolors’ infringement claim was neither unreasonable nor frivolous, as Unicolors succeeded on the
merits. See Novelty Textile Inc. v. Wet Seal Inc., No.
CV 13-05527 SJO (MRWx), 2015 WL 9690316, at *2
(C.D. Cal. Mar. 4, 2015) (“Plaintiff’s infringement
claims were clearly not frivolous or unreasonable:
they succeeded on the merits.”). Nor was H&M LP’s
defense of this case frivolous. Indeed, the Court denied Unicolors’ motion for summary judgment because it determined that a reasonable jury could find
in H&M LP’s favor.
But even though H&M LP’s overall position was
not frivolous, it did assert some unreasonable arguments during the course of the litigation. For example, H&M LP filed multiple motions arguing that the
design on its garments was presumptively original because of a Chinese copyright registration obtained by
a third party. See Dkt. Nos. 151, 191, 247. While H&M
LP’s legal argument that a foreign registration could
convey a presumption of originality was not objectively unreasonable, H&M LP failed to provide any
evidence connecting the Chinese registration to its
own garments. H&M LP therefore acted unreasonably in repeatedly litigating an issue that was irrelevant to the resolution of Unicolors’ claims. See Novelty
Textile, 2015 WL 9690316, at *2 (explaining that the
defendants’ re-litigation of a previously decided issue
was unreasonable). Thus, this factor weighs in favor
of an attorneys’ fees award.

26a
c. Motivation
The Court does not find any evidence that either
party had an improper motive in this litigation. Thus,
this factor is neutral.
d. Purposes of Compensation and
Deterrence
Finally, the Court examines the need to advance
the purposes of the Copyright Act through compensation and deterrence. “The goal of the Copyright Act is
to promote creativity for the public good.” Glacier
Films (USA), Inc. v. Turchin, 896 F.3d 1033, 1041 (9th
Cir. 2018) (quotations omitted). Awarding attorneys’
fees to a prevailing plaintiff serves this purpose by
“encouraging private enforcement and deterring infringements.” Frank Music Corp. v. Metro-GoldwynMayer Inc., 886 F.2d 1545, 1556 (9th Cir. 1989). This
is particularly true when a defendant willfully infringes a plaintiff’s copyright. See Glacier Films, 896
F.3d at 1039 (explaining that “willful infringements
involving small amounts of money may not be adequately deterred absent an award of fees”) (quotations
omitted).
Here, the jury found that H&M LP willfully infringed Unicolors’ copyright. An award of attorneys’
fees will therefore deter future infringement. And,
given that this matter has been heavily litigated
through and past trial, a fee award will help ensure
that Unicolors’ damages award is not swallowed up by
attorneys’ fees. This final factor therefore favors a fee
award.

27a
Most of the relevant factors favor granting Unicolors’ motion for attorneys’ fees, and none of the factors weigh against it. Accordingly, the Court holds
that a fee award is warranted here.
B.

Amount of Attorneys’ Fees

Unicolors seeks $508,709.20 in attorneys’ fees for
166.4 hours spent by Stephen Doniger, 473.9 hours
spent by Scott Burroughs, 308.2 hours spent by Chan
Yong Jeong, 13.4 hours spent by Trevor Barrett, and
17.2 hours spent by paralegal Erin Kurth. Mot. at pp.
18-19; Supp. Decl. Scott Burroughs ¶ 3 (Dkt. No. 2731).
Courts use a lodestar method to determine the appropriate amount of attorneys’ fees. Intel Corp. v. Terabyte Int’l, Inc., 6 F.3d 614, 622 (9th Cir. 1993). In so
doing, they multiply “the number of hours reasonably
expended on the litigation by the reasonable hourly
rate.” Id. The lodestar amount is presumptively reasonable, but a court may adjust the award if circumstances warrant. Morales v. City of San Rafael, 96
F.3d 359, 363-64 (9th Cir. 1996), opinion amended on
denial of reh’g, 108 F.3d 981 (9th Cir. 1997).
1.

Reasonable Hourly Rates

The Court has reviewed the hourly rates of Unicolors’ attorneys and finds them reasonable. Mr. Doniger, an attorney with 23 years of experience,
charged between $600 and $635 per hour. Decl. Steven Doniger, ¶¶ 1, 4 (Dkt. No. 270-6). Mr. Burroughs,
a copyright litigator with 14 years of experience,
charged between $545 and $565 per hour. Decl. Scott

28a
Burroughs, ¶¶ 5, 11 (Dkt. No. 270-1). Mr. Barrett, an
associate at Doniger Burroughs APC, charged $415
per hour. Decl. Trevor Barrett, ¶ 3 (Dkt. No. 270-8).
More than three years ago, this court approved similar rates for these same three attorneys. Novelty Textile, 2015 WL 9690316, at *3 (in March 2015, approving a $550 hourly rate for Mr. Doniger, a $475 hourly
rate for Mr. Burroughs, and a $325 hourly rate for
Mr. Barrett). Mr. Jeong charged a $450 hourly rate,
which also falls within a reasonable range. See Decl.
Chan Yong Jeong, ¶¶ 4, 7 (Dkt. No. 270-10). Paralegal
Erin Kurth’s $125 hourly rate likewise is reasonable.
See Hirsch v. Compton Unified Sch. Dist., No. CV 1201269 RSWL (MRWx), 2013 WL 1898553, at *3-4
(C.D. Cal. May 3, 2013) (explaining that “[w]ork performed by paralegals may be compensated as part of
an attorney’s fee award” and approving a paralegal’s
$200 hourly rate). Thus, Unicolors bases its fee request on reasonable hourly rates.
In its opposition, H&M LP does not address the
hourly rates Unicolors’ attorneys’ charged. Instead, it
argues that the Court should allow it to file supplemental briefing about the reasonableness of Unicolors’ attorneys’ fees. Opp’n at p. 23. But H&M LP fails
to explain why it could not have fully addressed this
issue in its opposition, and the Court declines to permit additional briefing on Unicolors’ fee motion.
2.

Hours Reasonably Spent

The Court also finds that Unicolors’ attorneys
spent a reasonable number of hours on this case. Unicolors’ attorneys submitted time entries for all of the
time they spent on this matter. See Dkt. Nos. 270-4,

29a
270-5, 270-7, 270-9, 270-11, 270-13. Having reviewed
those time entries, the Court finds that they are sufficiently detailed, and the time entries do not appear
excessive.
In arguing that Unicolors’ attorneys billed excessively, H&M LP does not contest specific time entries.
Rather, it claims Unicolors should not recover fees for
time spent litigating matters on which Unicolors did
not prevail. For example, H&M LP argues that Unicolors should not recover fees for time spent on unsuccessful motions and fruitless efforts toward recovering foreign profits. Opp’n at pp. 23-24. But “a plaintiff
is not to be denied full attorneys’ fees merely because
[it] lost some interim rulings en route to ultimate success.” Assessment Techs. of WI, LLC v. WIREdata,
Inc., 361 F.3d 434, 439 (7th Cir. 2004) (quotations
omitted). The Court therefore will not reduce Unicolors’ fee award simply because it sought some relief it
did not obtain.
3.
Calculation of Attorneys’
Fees
As described above, Unicolors’ attorneys charged
reasonable hourly rates and expended reasonable
hours litigating this case. The Court therefore adopts
Unicolors’ lodestar calculation of $508,709.20. This
amount is presumptively reasonable, but, as Unicolors points out, courts can increase the lodestar in certain circumstances. Morales, 96 F.3d at 363-64. However, the Court finds that the lodestar figure properly
accounts for the time and effort that went into litigating this case. The Court therefore awards Unicolors
$508,709.20 in attorneys’ fees.

30a
C.

Costs

Section 505 also allows the Court to award full
costs, including “those that ‘would normally be
charged to a fee paying client.’” DuckHole Inc. v.
NBCUniversal Media LLC, No. CV-12-10077-BRO,
2013 WL 5797204, at *6 (C.D. Cal. Oct. 25, 2013)
(quoting Trustees of Const. Indus. & Laborers Health
& Welfare Trust v. Redland Ins. Co., 460 F.3d 1253,
1257 (9th Cir. 2006)). Unicolors seeks $5,856.27 for
expenses like Westlaw legal research, service of process, filing fees, translation, and parking. Burroughs
Decl. ¶ 3, Ex. 1. The Court finds these costs reasonable and awards Unicolors the requested $5,856.27.
D.

Prejudgment Interest

Unicolors also asks the Court for an award of prejudgment interest. A prevailing plaintiff can recover
prejudgment interest in cases involving “undisputed
copyright infringement.” Polar Bear Prods., Inc. v.
Timex Corp., 384 F.3d 700, 718 (9th Cir. 2004). In
“vigorously contested” cases, however, a district court
may properly decline to impose prejudgment interest.
Societe Civile Succession Guino v. Renoir, 305 F.
App’x 334, 339 (9th Cir. 2008).
This is not a case of undisputable copyright infringement. While the jury determined that H&M LP
willfully infringed Unicolors’ copyright, a trial was required to make that determination. H&M LP raised
defenses that, while unsuccessful, created legitimate
disputes about its liability. Accordingly, the Court declines to grant Unicolors prejudgment interest.

31a
E.

Post Judgment Interest

Unicolors also seeks post judgment interest. Post
judgment interest is mandatory under 28 U.S.C.
§ 1961(a). Air Separation, Inc. v. Underwriters at
Lloyd’s of London, 45 F.3d 288, 290 (9th Cir. 1995).
The Court therefore awards Unicolors post judgment
interest at the rate described in 28 U.S.C. § 1961(a).
IV.

CONCLUSION

For the foregoing reasons, the Court GRANTS
Unicolors’ motion for attorneys’ fees and costs. The
Court grants Unicolors $508,709.20 in attorneys’ fees
and $5,856.27 in costs. The Court also grants Unicolors post judgment interest.
IT IS SO ORDERED.
Dated: September 25, 2018
André Birotte [h/w signature]
HONORABLE ANDRÉ BIROTTE JR.
UNITED STATES DISTRICT COURT
JUDGE

32a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ, LP; et al.,
Defendants.
Case No.: CV-16-02322 AB (SKx)
Honorable André Birotte Jr.
[PROPOSED] AMENDED JUDGMENT
[PROPOSED] AMENDED JUDGMENT
THE COURT ORDERS AND ENTERS JUDGMENT FOR UNICOLORS, INC. (“UNICOLORS”) AGAINST H&M HENNES & MAURITZ,
LP (“H&M”) AS FOLLOWS:
1.
Unicolors owns a valid copyright and
registration for design EH101;
2.
H&M is liable for the willful copyright
infringement of Unicolors’ design EH101;
3.
Judgment is entered against H&M and
in favor of Unicolors in the amount of seven
hundred eighty-thousand seven hundred seventy-four dollars and eighty cents

33a
($780,774.80), which reflects (a) damages of
two hundred sixty-six thousand two hundred
nine dollars and thirty-three cents
($266,209.33) for solely domestic United
States product sales, (b) attorneys’ fees of five
hundred eight thousand seven hundred nine
dollars and twenty cents ($508,709.20), and (c)
costs of five thousand eight hundred fifty-six
dollars and twenty-seven cents ($5,856.27);
and
4.
Post-judgment interest is awarded
against H&M as prescribed by law.
Dated: October 22, 2018
By: André Birotte [h/w signature] ____
UNITED STATES DISTRICT
JUDGE
HONORABLE ANDRÉ BIROTTE JR.

34a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
a California
Corporation
Plaintiff,

vs.
H&M HENNES &
MAURITZ, L.P., a
New York Limited
Partnership, and
DOES 1-20, inclusive,
Defendants.

Case No. 2:16-cv-02322-AB
(SKx)
[PROPOSED] ORDER
GRANTING JOINT
STIPULATION
REGARDING
SUPERSEDEAS BOND
AMOUNT

35a
TO THE DISTRICT COURT, ALL PARTIES,
AND THEIR ATTORNEYS OF RECORD:
The Joint Stipulation Regarding Supercedeas
(sic) Bond Amount was submitted for review and consideration by the Honorable André Birotte, Jr., and
having consideration the Joint Stipulation:
IT IS THEREFORE ORDERED, ADJUDGED,
AND DECREED:
(1)
A supersedes bond in the amount of
125% of the Amended Judgment, signed by Atlantic Specialty Insurance Company, a treasury approved surety up to 65 Million dollars,
will be posted by H&M to secure the Amended
Judgment (“Bond”); and
(2)
The deadline for H&M to secure the
Bond and file a motion as required by Rule 62,
seeking Court approval of the Bond, shall be
ten (10) business days after the date of the
Court’s approval of this stipulation.
IT IS SO ORDERED.

Dated: November 13, 2018
André Birotte [h/w signature]
Hon. André Birotte Jr.
United States District Judge
CC: Fiscal

36a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
a California
Corporation
Plaintiff,

vs.
H&M HENNES &
MAURITZ, L.P., a
New York Limited
Partnership, and
DOES 1-20, inclusive,
Defendants.

Case No. 2:16-cv-02322-AB
(SKx)
[PROPOSED] ORDER
GRANTING JOINT
MOTION FOR ENTRY OF
ORDER STAYING
EXECUTION OF
JUDGEMENT PENDING
APPEAL AND
APPROVING
SUPERSEDEAS BOND

37a
Whereas H&M Hennes & Mauritz LP (“H&M
LP”), and Unicolors Inc. have agreed to a supersedeas
bond in the amount of $975,968.50 issued by Atlantic
Specialty Insurance Company in the form submitted
herewith (“Bond”);
IT IS THEREFORE ORDERED, ADJUDGED,
AND DECREED:
1.
The Unopposed Motion for Entry of Order Staying Execution of Amended Judgment
Pending Appeal is GRANTED;
2.
The form of the Bond and the amount of
the Bond is hereby approved;
3.
Execution of the Court’s October 23,
2018 Amended Judgment is hereby stayed
pending appeal, provided that H&M LP file
into the record notice of a bond in the amount
of $975,968.50 and in the form of the bond attached as Exhibit A to the Joint Motion for Entry of Order to Stay Proceedings within seven
(7) business days from the entry of this order.
IT IS SO ORDERED.
Dated: November 28, 2018
André Birotte [h/w signature]
Hon. André Birotte Jr.
United States District Judge
CC: Fiscal

38a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
CIVIL MINUTES – GENERAL
Case No.: CV 16-02322-AB (SKx)

Date:
September 4,
2020

Title: Unicolors, Inc. v. H&M Hennes & Mauritz,
L.P.
Present: The Honorable ANDRÉ BIROTTE JR.,
United States District Judge
Carla Badirian
Deputy Clerk

N/A
Court Reporter

Attorney(s) Present
for Plaintiff(s):

Attorney(s) Present
for Defendant(s):

None Appearing

None Appearing

Proceedings: [In Chambers] Order Re-Opening
Case Following Ninth Circuit’s
Order and Notifying Parties of
Inquiry Submitted to the
U.S. Register of Copyrights
On May 29, 2020, the United States Court of Appeals for the Ninth Circuit issued an opinion, Unicolors, Inc. v. H&M Hennes & Mauritz, LP, 959 F.3d
1194 (9th Cir. 2020) (also at Dkt. No. 297) reversing
and remanding this Court’s Amended Judgment (Dkt.
No. 289), and award of attorneys’ fees (Dkt. No. 279)

39a
previously entered in favor of Plaintiff Unicolors, Inc.
and against Defendant H&M for willful copyright infringement. On August 17, 2020, the Ninth Circuit issued its Mandate. (Dkt. No. 298).
In accordance with the Ninth Circuit’s May 29,
2020 Order and August 17, 2020 Mandate, the
Amended Judgment entered on October 22, 2018
(Dkt. No. 289) is REVERSED and the Order Staying
Execution of the Amended Judgment (Dkt. No. 295) is
MOOT.
In its opinion, the Ninth Circuit remanded “with
instructions to submit an inquiry to the Register of
Copyrights asking whether the known inaccuracies
contained in the [No. VA 1-770-400] Registration application[,]” as described in the opinion, “if known to
the Register of Copyrights, would have caused it to
refuse registration.” Unicolors, Inc., 959 F.3d at 1200.
Following the Ninth Circuit’s instruction, the
Court hereby submits the attached inquiry and supporting exhibits to Maria Strong, Esq., Acting Register of Copyrights and Director of the U.S. Copyright
Office, via U.S. mail (address: Library of Congress,
101 Independence Avenue, SE, Washington, D.C.
20540). The Clerk of the Court is hereby directed to
serve the Register of Copyrights with a copy of this
Order and the letter attached hereto via U.S. mail.
In light of the foregoing, the Court hereby ORDERS this action REOPENED and will notify the
parties when it receives a response to its inquiry.
IT IS SO ORDERED.

40a
United States District Court
Central District of California
United States Courthouse
255 East Temple Street
Los Angeles, California 90012
Chambers of
of André Birotte Jr.
United States District Judge
September 4, 2020
Maria Strong, Esq.
Acting Register of Copyrights and
Director of the U.S. Copyright Office
Library of Congress
101 Independence Avenue, SE
Washington, D.C. 20540
copyinfo@copyright.gov
Re: Inquiry in Response to the Ninth Circuit’s Opinion in Unicolors, Inc. v. H&M Hennes & Mauritz, LP,
959 F.3d 1194 (9th Cir. 2020)
Dear Ms. Strong:
At the direction of the United States Court of Appeals
for the Ninth Circuit, the undersigned Federal District Court in the Central District of California respectfully submits this inquiry regarding a copyrightinfringement action, Unicolors, Inc. v. H&M Hennes
& Mauritz, L.P. et al. (Case No. 2:16-cv-02322-AB
(SKx), filed Apr. 5, 2016).
On May 29, 2020, the Ninth Circuit issued an opinion
reversing this Court’s prior (1) entry of judgment

41a
following a jury trial and (2) award of attorneys’ fees,
previously entered in favor of Plaintiff Unicolors, Inc.
(“Unicolors”) and against Defendant H&M Hennes &
Mauritz LP (“H&M”) for willful copyright infringement. Unicolors, Inc. v. H&M Hennes & Mauritz, LP,
959 F.3d 1194, 1200 (9th Cir. 2020). As background,
this case regards “the factual issue whether H&M’s
garments bear infringing copies of Unicolors’s 2011
design.” Id. at 1195. This design is a two-dimensional
artwork called EH101, which Unicolors received a
U.S. Copyright Office registration for in February 2011. Id. at 1196.
Relevant here, the Ninth Circuit remanded to this
Court “with instructions to submit an inquiry to the
Register of Copyrights asking whether the known inaccuracies contained in the [No. VA 1770-400] Registration application [for EH101,]” as described in the
opinion, “if known to the Register of Copyrights,
would have caused it to refuse registration.” Id. at
1200. This inquiry is necessary because the Ninth Circuit clarified that, under 17 U.S.C. § 411(b)(1)-(2),
once a defendant alleges that:
(1) a plaintiff’s certificate of registration contains inaccurate information; (2) ‘the inaccurate information was included on the application for copyright registration’; and (3) the inaccurate information was included on the application ‘with knowledge that it was inaccurate,’ a district court is then required to submit a request to the Register of Copyrights ‘to
advise the court whether the inaccurate information, if known, would have caused [it] to refuse registration.’

42a
Id. at 1197 (quoting 17 U.S.C. § 411(b)(1)-(2)).
Here, the Ninth Circuit determined that this Court
erred by “consider[ing] in the first instance whether
the Register of Copyrights would have refused registration due to the inclusion of known inaccuracies in
a registration application.” Id. Accordingly, in compliance with the Ninth Circuit’s instruction, this Court
respectfully requests that the Register of Copyrights
provide an answer to the following question:
If the Register of Copyrights had been aware
of the known inaccuracies contained in Unicolors, Inc.’s Registration application No. VA
1-770-400, as described in the Ninth Circuit’s
decision in Unicolors, Inc. v. H&M Hennes &
Mauritz, LP, 959 F.3d 1194 (9th Cir. 2020),
would those inaccuracies have caused it to refuse copyright registration? Why or why not?
Attached hereto are the following documents to aid in
your response to this inquiry:


Exhibit 1: Unicolors’s First Amended Complaint (Case No. 2:16-cv-02322-AB (SKx), Dkt.
No. 25 and Exhibits A-C thereto, dated
Aug. 26, 2016);



Exhibit 2: Amended Judgment (Case
No. 2:16-cv-02322-AB (SKx), Dkt. No. 289,
dated Oct. 22, 2018);



Exhibit 3: Opinion from the Ninth Circuit
Court of Appeals in Unicolors, Inc. v. H&M

43a
Hennes & Mauritz, LP, 959 F.3d 1194 (9th Cir.
2020);


Exhibit 4: H&M’s Request for the Court to
Submit a Request to the Register of Copyrights Pursuant to 17 U.S.C. § 411(b)(2); [Proposed] Request to the Copyright Register and
Copy of the Ninth Circuit Order Filed Concurrently Herewith (Case No. 2:16-cv-02322-AB
(SKx), Dkt. No. 299, dated Aug. 21, 2020); and



Exhibit 5: Unicolors, Inc’s Notice of Lodging
of [Proposed] 17 U.S.C. § 411(b)(2) Request to
the Register of Copyrights (Case No. 2:16-cv02322-AB (SKx), Dkt. No. 302, dated Aug. 31,
2020).

This Court respectfully requests a response to this inquiry by March 5, 2021. Your response will shed
light on a threshold issue before this Court, namely,
whether Unicolors’s copyright registration for the textile design EH101 is valid, which is a precondition to
bringing a copyright-infringement suit.
Should you have any questions, please do not hesitate
to contact this Court the address above or via email
at AB_Chambers@cacd.uscourts.gov.
Sincerely,
/s/ André Birotte Jr.
André Birotte Jr.
United States District Judge

44a

EXHIBIT 1

45a
C. YONG JEONG, ESQ. (SBN 255244)
jeong@jeonglikens.com
AMY CHOE, ESQ. (SBN 299870)
amy.choe@jeonglikens.com
JEONG & LIKENS, L.C.
1055 W. 7TH Street, Suite 2280
Los Angeles, California 90017
Tel. 213-688-2001
Fax. 213-688-2002
Attorneys for Plaintiff, UNICOLORS, INC.
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
Plaintiff,
vs.
H&M HENNES & MAURITZ L.P., a New York Limited Partnership, and DOES 1-20, inclusive,
Defendants.
Case Number: 2:16-cv-02322-AB-(SKx)
PLAINTIFF’ S FIRST AMENDED
COMPLAINT FOR: 1. COPYRIGHT
INFRINGEMENT 2. VICARIOUS
COPYRIGHT
INFRINGEMENT
3. CONTRIBUTORY COPYRIGHT
INFRINGEMENT

46a
Jury Trial Demanded
Plaintiff UNICOLORS, Inc. (“Plaintiff” or “UNICOLORS”) by and through its undersigned attorneys,
hereby prays to this honorable Court for relief and
remedy based on the following:
INTRODUCTION
Plaintiff is a California-based company engaged in
the apparel industry as a textile converter of imported
and domestic fabrications. Plaintiff creates, or purchases and obtains, exclusive rights to unique two-dimensional graphic artworks for use on textiles and
garments, and those textiles and garments are transacted primarily in the fashion industry. Plaintiff owns
these designs in exclusivity and makes sales of products bearing these designs for profit. Plaintiff’s business is predicated on its ownership of these designs
and it spends a considerable amount of time and resources creating and obtaining top-quality, marketable and aesthetically-appealing designs. Customers of
Plaintiff, including possibly DOE defendants named
herein, take design samples with the understanding
and agreement that they will only utilize Plaintiff to
reproduce said designs should they wish to do so, and
will not seek to make minor changes to Plaintiff’s proprietary work to reproduce the same elsewhere, yet
use those designs in furtherance of their business in
violation of both their contractual agreement with
Plaintiff and Plaintiff’s copyrights. No other party is
authorized to make sales of product bearing Plaintiff’s
proprietary designs without express permission from
Plaintiff. This action is brought to recover damages
for direct, vicarious and contributory copyright

47a
infringement arising out of the misappropriation of
Plaintiff’s exclusive designs by the Defendants, and
each of them.
JURISDICTION AND VENUE
1. This action arises under the Copyright Act of
1976, Title 17 U.S.C. § 101 et seq.
2. This Court has federal question jurisdiction under
28 U.S.C. §§ 1331, 1338(a) and (b).
3. Venue in this judicial district is proper under
28 U.S.C. §§ 1391(c) and 1400(a) in that this is the
judicial district in which a substantial part of the
acts and omissions giving rise to the claims occurred.
PARTIES
4. UNICOLORS, Inc. (“Plaintiff”) is a corporation organized and existing under the laws of the State
of California with its principal place of business
in the County of Los Angeles, at 3251 East
26th Street, Vernon, CA 90058.
5. Plaintiff is informed and believes and thereon alleges that Defendant H & M HENNES & MAURITZ L.P. (“H & M”), is, and at all times herein
mentioned was, a limited partnership organized
and existing under the laws of New York and doing business in California, with its principal place
of business at 110 Fifth Avenue, 11th Floor,
New York, NY 10011.

48a
6. Defendant H&M, and Defendants DOES 1-20, inclusive, may be collectively referred to as “Defendants.”
7. Plaintiff is informed and believes and thereon alleges that some of Defendants DOES 1 through 8,
inclusive, are manufacturers and/or vendors of
garments to Defendant, which DOE Defendants
have manufactured and/or supplied, and are manufacturing and/or supplying, garments comprised
of fabric printed with Plaintiff’s copyrighted design(s) (as hereinafter defined) without Plaintiff’s
knowledge or consent, or have contributed to said
infringement. The true names, whether corporate, individual or otherwise, and capacities of defendants sued herein as DOES 1 through 8 are
presently unknown to Plaintiff at this time, and
therefore, Plaintiff sues said defendants by such
fictitious names. Plaintiff will seek leave to
amend this complaint to allege their true names
and capacities when the same have been ascertained. Plaintiff is informed and believes, and
based thereon alleges, that each of defendants
designated as a DOE is responsible in some manner for the events alleged herein and the damages
caused thereby.
8. Defendants DOES 9 through 20, inclusive, are
other parties not yet identified who have infringed Plaintiff’s copyrights, have contributed to
the infringement of Plaintiff’s copyrights, or have
engaged in one or more of the wrongful practices
alleged herein. The true names, whether corporate, individual or otherwise, and capacities of defendants sued herein as DOES 9 through 20 are

49a
presently unknown to Plaintiff at this time, and
therefore, Plaintiff sues said defendants by such
fictitious names. Plaintiff will seek leave to
amend this complaint to allege their true names
and capacities when the same have been ascertained.
9. Plaintiff is informed and believes and thereupon
alleges that at all times relevant hereto each of
Defendants acted in concert with each other, was
the agent, affiliate, officer, director, manager,
principal, alter-ego, and/or employee of the remaining defendants and was at all times acting
within the scope of such agency, affiliation, alterego relationship and/or employment; and actively
participated in or subsequently ratified and
adopted, or both, each and all of the acts or conduct alleged, with full knowledge of all the facts
and circumstances, including without limitation
to full knowledge of each and every wrongful conduct and Plaintiff’s damages caused therefrom.
CLAIMS RELATED TO DESIGN
10. Plaintiff is the owner and author of a two-dimensional artwork called EH101, under title Floral
(“Subject Design”). (Exhibit A).
11. Plaintiff applied for a copyright from the
United States Copyright Office for the Subject
Design and was granted Registration No. VA 1770-400 effective on February 14, 2011. (Exhibit B).

50a
12. Plaintiff formatted the Subject Design for use on
textiles, sampled the Subject Design, and negotiated sales of fabric bearing the Subject Design.
13. Plaintiff is informed and believes and thereon alleges that, without Plaintiff’s authorization, Defendant H & M purchased, sold, marketed, advertised, manufactured, caused to be manufactured,
imported and/or distributed fabric and/or garments comprised of fabric featuring a design
which is identical, or substantially similar to, the
Subject Design. True and correct copies of such
garments have been attached hereto as Exhibit C.
Said garments include but are not limited to garments sold by H & M bearing the label “H&M.”
14. At various times Defendant H & M owned and
controlled offline and/or online retail stores, and
Plaintiff’s investigation revealed that garments
comprised of fabric bearing the Subject Design
were being offered for sale at such offline and/or
retail stores, garments which were manufactured
and/or imported under the direction of the Defendants, and each of them.
15. None of the aforementioned transactions were authorized by Plaintiff, and all were in violation of
Plaintiff’s intellectual property rights.

51a
FIRST CLAIM FOR RELIEF
(For Copyright Infringement – Against All Defendants)
16. Plaintiff repeats, re-alleges and incorporates
herein by reference as though fully set forth the
allegations contained in Paragraphs 1 through
15, inclusive, of this Complaint.
17. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, accessed
the Subject Design through, without limitation,
the following: (a) access to Plaintiff’s showroom
and/or design library; (b) access to authorized or
unauthorized reproductions of the Subject Design
in the possession of other vendors and/or DOE Defendants, including but not limited to international and overseas converters and printing mills;
(c) access to Plaintiff’s strike-offs, swatches, paper
CADs and samples; and (d) access to garments in
the marketplace manufactured with lawfully
printed fabric bearing the Subject Design.
18. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, infringed Plaintiff’s copyright by importing, creating, making and/or developing directly infringing
and/or derivative works from the Subject Design
and by importing, producing, distributing and/or
selling infringing garments through a nationwide
network of retail stores, catalogues, and online
websites.

52a
19. Due to Defendants’ acts of infringement, Plaintiff
has suffered substantial damages to its business
in an amount to be established at trial.
20. Due to Defendants’ acts of infringement, Plaintiff
has suffered general and special damages to its
business in an amount to be established at trial.
21. Due to Defendants’ acts of copyright infringement
as alleged herein, Defendants, and each of them,
have obtained direct and indirect profits they
would not otherwise have realized but for their infringement of the Subject Design. As such, Plaintiff is entitled to disgorgement of Defendants’
profits directly and indirectly attributable to Defendants’ infringement of the Subject Design in
an amount to be established at trial.
22. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, have
committed acts of infringement alleged herein
with actual or constructive knowledge of Plaintiff’s rights such that Plaintiff is entitled to a finding of willful infringement.
SECOND CLAIM FOR RELIEF
(For Vicarious Copyright Infringement – Against All
Defendants)
23. Plaintiff repeats, re-alleges and incorporates
herein by reference as though fully set forth the
allegations contained in Paragraphs 1 through 22
inclusive, of this Complaint.

53a
24. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, are vicariously liable for the infringement alleged
herein because they had the right and ability to
supervise the infringing conduct and because they
had a direct financial interest in the infringing
product.
25. Plaintiff is informed and believes Defendants including, but not limited to Defendant H & M, engaged in direct copyright infringement.
26. Plaintiff is informed and believes and thereon alleges that there was a substantial and continuing
connection between Defendants.
27. Plaintiff is informed and believes and thereon alleges that the Defendants had the right and ability to supervise the infringing conduct by engaging in exclusive distribution agreements, retaining decisions over design, and/or reserving the
right to monitor and terminate partnerships with
entities that violate others’ copyrights.
28. Plaintiff is informed and believes and thereon alleges that the Defendants had direct financial interest in the infringer’s activity by profiting from
featuring the desirable Subject Design on the infringing garments, while declining to exercise
their right and/or obligation to stop or limit the
infringement by requesting, changing, or suggesting a different design or declining to buy the garment featuring the Subject Design.

54a
29. By reason of the Defendants’, and each of their,
acts of vicarious infringement as alleged above,
Plaintiff has suffered and will continue to suffer
substantial damages to its business in an amount
to established at trial, as well as additional general and special damages in an amount to be established at trial.
30. Due to Defendants’ acts of vicarious copyright infringement as alleged herein, Defendants, and
each of them, have obtained direct and indirect
profits they would have not otherwise realized bur
for their infringement of the Subject Design. As
such, Plaintiff is entitled to disgorgement of Defendants’ profits directly and indirectly attributable to Defendants’ infringement of the Subject Design, an amount to be established at trial.
31. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, have
committed acts of infringement alleged herein
with actual or constructive knowledge of Plaintiff’s rights such that Plaintiff is entitled to a finding of willful infringement.
THIRD CLAIM FOR RELIF
(For Contributory Copyright Infringement – Against
All Defendants)
32. Plaintiff repeats, re-alleges and incorporates
herein by reference as though fully set forth the
allegations contained in Paragraphs 1 through 31
inclusive, of this Complaint.

55a
33. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, knowingly induced, participated in, aided and abetted
in and resultantly profited from the illegal reproduction, importation, purchase, distribution
and/or sales of product featuring the Subject Design as alleged herein above.
34. By reason of the Defendants’, and each of their,
acts of contributory copyright infringement as alleged above, Plaintiff has suffered and will continue to suffer substantial damages to its business
in an amount to established at trial, as well as additional general and special damages in an
amount to be established at trial.
35. Due to Defendants’ acts of contributory copyright
infringement as alleged herein, Defendants, and
each of them, have obtained direct and indirect
profits they would have not otherwise realized bur
for their infringement of the Subject Design. As
such, Plaintiff is entitled to disgorgement of Defendants’ profits directly and indirectly attributable to Defendants’ infringement of the Subject Design, in an amount to be established at trial.
36. Plaintiff is informed and believes and thereon alleges that Defendants, and each of them, have
committed acts of infringement alleged herein
with actual or constructive knowledge of Plaintiff’s rights such that Plaintiff is entitled to a finding of willful infringement.

56a
PRAYER FOR RELIEF
WHEREFORE, Plaintiff prays for judgment against
all Defendants as follows:
Against All Defendants
With respect to Each Claim for Relief:
1.

That Defendants, their agents and servants be
enjoined from infringing Plaintiff’s copyrights in
any manner;

2. That Plaintiff be awarded all profits of Defendants plus all losses of Plaintiff, the exact sum to
be proven at time of trial, or, if elected before final
judgment, statutory damages as available under
the Copyright Act, 17 U.S.C. § 101 et seq.;
3. That Plaintiff be awarded its attorneys’ fees as
available under the Copyright Act, 17 U.S.C.
§ 101 et seq.;
4. That Plaintiff be awarded pre-judgment interest
as allowed by law;
5. That Plaintiff be awarded costs of litigation; and
6. That Plaintiff be awarded such further legal and
equitable relief as the Court deems proper.
DEMAND FOR TRIAL BY JURY
Plaintiff hereby demands a trial by jury in this action
pursuant to Federal Rule of Civil Procedure 38 and
the Seventh Amendment of the Constitution.

57a
Dated: August 26, 2016

Respectfully submitted,

/s/ C. Yong Jeong
C. Yong Jeong, Esq.
Attorneys for Plaintiff, UNICOLORS, INC.

58a

EXHIBIT A

59a
EH101.tif
Not Actual Size, 75% of actual size

60a

EXHIBIT B

61a
Certificate of Registration
This Certificate issued
under the seal of the
Copyright Office in accordance with title 17,
United States Code, attests that registration
has been made for the
work identified below.
The information on this
certificate has been made
a part of the Copyright
Office records.
Registration Number
VA 1-770-400
Effective date of registration:
February 14, 2011
/s/ Maria A. Pallonte
Acting Register of Copyrights, United States of
America
Title
Title of Work: Floral: EH103, EH105, EH111,
CEH113, EH123, EH132,
CEH146, CEH147, EH149,
EH157, CEH175, EH181,
CEH182, EH183, EH185,
CEH194, EH196, EH200, EH210

62a
Ethnic: EH101, EH102, EH106,
CEH109, EH115, CEH116,
EH119, EH120, EH125, EH133,
EH142, EH144
Completion / Publication
Year of Completion: 2011
Date of 1st Publication: January 15, 2011
Author
Author: UNICOLORS, INC. AKA
UNICOLRS STUDIO
Author Created: 2-Dimentional artwork
Work made for hire: Yes
Citizen of: United States
Domiciled in: United States
Copyright Clamant
Copyright Clamant:
UNICOLORS, INC. AKA UNICOLORS STUDIO
3251 E. 26th STREET, Los Angeles, CA, 90058
Certification
Name: NADER PAZIRANDEH
Date: January 28, 2011

63a
Registration #: VA001770400
Service Request #: 1-570056087

UNICOLORS, INC.
3251 E. 26th STREET
Los Angeles, CA 90058

64a

EXHIBIT C

65a

66a

67a

68a

69a

70a

71a

EXHIBIT 2

72a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ, LP; et al.,
Defendants.
Case No.: CV-16-02322 AB (SKx)
Honorable Andre Birotté Jr.
[PROPOSED] AMENDED
JUDGMENT

73a
[PROPOSED] AMENDED JUDGMENT
THE COURT ORDERS AND ENTERS JUDGMENT FOR UNICOLORS, INC. (“UNICOLORS”)
AGAINST H&M HENNES & MAURITZ, LP
(“H&M”) AS FOLLOWS:
1.

Unicolors owns a valid copyright and registration
for design EH101;

2. H&M is liable for the willful copyright infringement of Unicolors’ design EH101;
3. Judgment is entered against H&M and in favor of
Unicolors in the amount of seven hundred
eighty-thousand seven hundred seventy-four dollars and eighty cents ($780,774.80), which reflects
(a) damages of two hundred sixty-six thousand
two hundred nine dollars and thirty-three cents
($266,209.33) for solely domestic United States
product sales, (b) attorneys’ fees of five hundred
eight thousand seven hundred nine dollars and
twenty cents ($508,709.20), and (c) costs of
five thousand eight hundred fifty-six dollars and
twenty-seven cents ($5,856.27); and
4. Post-judgment interest is awarded against H&M
as prescribed by law.
Dated: October 22, 2018
By: /s/ André Birotte Jr.
UNITED STATES DISTRICT JUDGE
HONORABLE ANDRÉ
BIROTTE JR.

74a

EXHIBIT 3

75a
UNICOLORS, INC., a California
Corporation,
Plaintiff-Appellee,
v.
H&M HENNES & MAURITZ, L.P., a New York
limited partnership,
Defendant-Appellant.
Nos. 18-56253,18-56548
United States Court of Appeals, Ninth Circuit.
Submitted March 30, 20201 Pasadena, California
Filed May 29, 2020
Appeal from the United States District Court for the
Central District of California, Andre Birotte, Jr., District Judge, Presiding, D.C. No. 2:16-cv-02322-AB-SK
Staci Jennifer Riordan, Aaron Brian, and Dale A.
Hudson, Nixon Peabody LLP, Los Angeles, California, for Defendant-Appellant.
Stephen M. Doniger, Scott Alan Burroughs, and Trevor W. Barrett, Doniger / Burroughs, Venice, California, for Plaintiff-Appellee.

1

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).

76a
Before: Carlos T. Bea and Bridget S. Bade, Circuit
Judges, and Jon P. McCalla,** District Judge.
OPINION
BEA, Circuit Judge:
This is a copyright-infringement action brought
by Unicolors, Inc. (“Unicolors”), a company that creates designs for use on textiles and garments, against
H&M Hennes & Mauritz L.P. (“H&M”), which owns
domestic retail clothing stores. Unicolors alleges that
a design it created in 2011 is remarkably similar to a
design printed on garments that H&M began selling
in 2015. The heart of this case is the factual issue
whether H&M’s garments bear infringing copies of
Unicolors’s 2011 design. Presented with that question, a jury reached a verdict in favor of Unicolors,
finding the two works at least substantially similar.
On appeal, however, we must decide a threshold
*1196 issue whether Unicolors has a valid copyright
registration for its 2011 design, which is a precondition to bringing a copyright-infringement suit.
I
Unicolors’s business model is to create artwork, copyright it, print the artwork on fabric, and market the
designed fabrics to garment manufacturers. Sometimes, though, Unicolors designs “confined” works,
**

The Honorable Jon P. McCalla, United States District Judge
for the Western District of Tennessee, sitting by designation.

77a
which are works created for a specific customer. This
customer is granted the right of exclusive use of the
confined work for at least a few months, during which
time Unicolors does not offer to sell the work to other
customers. At trial, Unicolors’s President, Nader
Pazirandeh, explained that customers “ask for privacy” for confined designs, in respect of which Unicolors holds the confined designs for a “few months” from
other customers. Mr. Pazirandeh added that his staff
follows instructions not to offer confined designs for
sale to customers generally, and Unicolors does not
even place confined designs in its showroom until the
exclusivity period ends.
In February 2011, Unicolors applied for and received a copyright registration from the U.S. Copyright Office for a two-dimensional artwork called
EH101, which is the subject of this suit. Unicolors’s
registration—No. VA 1-770-400 (“the ‘400 Registration”)—included a January 15, 2011 date of first publication. The ‘400 Registration is a “single-unit registration” of thirty-one separate designs in a single registration, one of which designs is EH101. The name
for twenty-two of the works in the ’400 Registration,
like EH101, have the prefix “EH”; the other nine
works were named with the prefix “CEH.” Hannah
Lim, a Unicolors textile designer, testified at trial
that the “EH” designation stands for “January 2011,”
meaning these works were created in that month. Ms.
Lim added that a “CEH” designation means a work
was designed in January 2011 but was a “confined”
work.
When asked about the ‘400 Registration at trial,
Mr. Pazirandeh testified that Unicolors submits

78a
collections of works in a single copyright registration
“for saving money.” Mr. Pazirandeh added that the
first publication date of January 15, 2011 represented
“when [Unicolors] present[ed] [the designs] to [its]
salespeople.” But these salespeople are Unicolors employees, not the public. And the presentation took
place at a company member-only meeting. Following
the presentation, according to Mr. Pazirandeh, Unicolors would have placed non-confined designs in Unicolors’s showroom, making them “available for public
viewing” and purchase. Confined designs, on the
other hand, would not be placed in Unicolors’s showroom for the public at large to view.
H&M owns and operates hundreds of clothing retail stores in the United States. In fall 2015, H&M
stores began selling a jacket and skirt made of fabric
bearing an artwork design named “Xue Xu.” Upon discovering H&M was selling garments bearing the Xue
Xu artwork, Unicolors filed this action for copyright
infringement, alleging that H&M’s sales infringed
Unicolors’s copyrighted EH101 design. Unicolors alleges that the two works are “row by row, layer by
layer” identical to each other.
The case proceeded to trial, at which a jury returned a verdict in Unicolors’s favor, finding Unicolors owned a valid copyright in the EH101 artwork,
H&M infringed on that copyright by selling the contested skirt and jacket, and H&M’s infringement was
willful. The jury awarded Unicolors $817,920 in profit
disgorgement damages and $28,800 in lost profits.
*1197 H&M filed a renewed motion for judgment
as a matter of law, or in the alternative, for a new

79a
trial. The district court denied H&M’s renewed motion for judgment as a matter of law, but conditionally
granted H&M’s motion for a new trial subject to Unicolors accepting a remittitur of damages to
$266,209.33. Unicolors accepted the district court’s
remittitur and the district court entered judgment
against H&M accordingly. Unicolors subsequently
moved for attorneys’ fees and costs, which the district
court awarded in the amounts of $508,709.20 and
$5,856.27, respectively. This appeal of both the entry
of judgment and award of attorneys’ fees in favor of
Unicolors followed.
II
[1]
[2] “To establish infringement, two elements must be proven: (1) ownership of a valid copyright, and (2) copying of constituent elements of the
work that are original.” Feist Publ’ns, Inc. v. Rural
Tel. Serv. Co., 499 U.S. 340, 361, 111 S.Ct. 1282, 113
L.Ed.2d 358 (1991). As to ownership, a registration
certificate issued by the U.S. Register of Copyrights
constitutes prima facie evidence of the validity of a
plaintiff’s copyright. 17 U.S.C. § 410(c).
[3]
Although proper registration benefits
copyright-infringement plaintiffs by imbuing their
copyright with a presumption of validity, proper registration is also a burden of sorts, as it is “a precondition to filing an action for copyright infringement.”
Gold Value Int’l Textile, Inc. v. Sanctuary Clothing,
LLC, 925 F.3d 1140, 1144 (9th Cir. 2019); see
17 U.S.C. § 411(a). Proper registration, of course, is
not a precondition to copyright protection. 17 U.S.C.
§ 408(a). But the Copyright Act expressly prohibits

80a
copyright owners from bringing infringement actions
without first properly registering their work. Id.
§ 411(a). Whether a copyright is properly registered is
rarely disputed, because the mere receipt of a registration certificate issued by the Register of Copyrights ordinarily satisfies the Copyright Act’s registration requirement. Id. § 411(b)(1). But possession of
a registration certificate does not satisfy the Copyright Act’s registration requirement if the registrant
secured the registration by knowingly including inaccurate information in the application for copyright
registration that, if known by the Register of Copyrights, would have caused it to deny registration. Id.
[4]
In practice, once a defendant alleges
that (1) a plaintiff’s certificate of registration contains
inaccurate information; (2) “the inaccurate information was included on the application for copyright
registration”; and (3) the inaccurate information was
included on the application “with knowledge that it
was inaccurate,” a district court is then required to
submit a request to the Register of Copyrights “to advise the court whether the inaccurate information, if
known, would have caused [it] to refuse registration.”
Id. § 411(b)(1)Q(2). In other words, courts may not
consider in the first instance whether the Register of
Copyrights would have refused registration due to the
inclusion of known inaccuracies in a registration application.
Here, following the unfavorable verdict, H&M
filed a renewed motion for judgment as a matter of
law that contended, in relevant part, that Unicolors’s
‘400 Registration covering the EH101 work was invalid because Unicolors secured the registration by

81a
including known inaccuracies in its application for
registration. In particular, H&M noted that Unicolors
used a single copyright registration to register thirtyone separate works, one of which was EH101. But to
register a collection of works as a “single unit” as Unicolors did, H&M maintained that the works must
have been first sold or offered for sale in *1198 some
integrated manner. And because the undisputed evidence adduced at trial showed that Unicolors included in the ‘400 Registration at least nine confined
works that were sold separately and exclusively to individual customers, H&M argued that the collection
of works identified in the ‘400 Registration were not
first sold together and at the same time. In turn,
H&M contended the district court should find the ‘400
Registration invalid and enter judgment in favor of
H&M.
The district court rejected H&M’s argument for
invalidating the ‘400 Registration for two reasons.
First, the district court held that invalidation required a showing at trial that Unicolors intended to
defraud the Copyright Office, and found no evidence
introduced at trial showed such an intent. Second, the
district court held that although Unicolors may have
marketed and sold various works included in the ‘400
Registration separately, that did not mean all of the
works were not first made available to the public—
i.e., published—on the same day.
[5]
Both the district court’s reasons for
denying H&M judgment as a matter of law are
flawed. To be sure, several opinions from this Court
have implied that there is an intent-to-defraud requirement for registration invalidation. See L.A.

82a
Printex Indus., Inc. v. Aeropostale, Inc., 676 F.3d 841,
853-54 (9th Cir. 2012); see also Lamps Plus, Inc. v. Seattle Lighting Fixture Co., 345 F.3d 1140, 1145 (9th
Cir. 2003) (stating that inaccuracies “do not invalidate a copyright … [unless] the claimant intended to
defraud the Copyright Office by making the misstatement”) (quoting Urantia Found. v. Maaherra, 114
F.3d 955, 963 (9th Cir. 1997)); Three Boys Music Corp.
v. Bolton, 212 F.3d 477, 486-87 (9th Cir. 2000) (same),
overruled on other grounds by Skidmore v. Led Zeppelin, 952 F.3d 1051 (9th Cir. 2020) (en banc); Cooling
Sys. & Flexibles, Inc. v. Stuart Radiator, Inc., 777
F.2d 485, 487 (9th Cir. 1985) (“Absent fraud, a misstatement or clerical error in the registration application … will not invalidate the copyright …. ”) (internal quotation marks omitted), overruling on other
grounds recognized by Apple Computer, Inc. v. Microsoft Corp., 35 F.3d 1435, 1448 (9th Cir. 1994); 2 M.
Nimmer & D. Nimmer, Nimmer on Copyright
§ 7.20[B][1] (2019). But we recently clarified that
there is no such intent-to-defraud requirement. See
Gold Value Int’l Textile, Inc., 925 F.3d at 1147
(9th Cir. 2019).
[6]
The district court further erred in concluding that Unicolors’s application for copyright registration did not contain inaccuracies despite the inclusion of confined designs because single-unit registration requires merely that all works identified in
the application be published on the same date. Under
the Copyright Act, an author may register a collection
of published works “as a single work,” so that the registrant need pay only one filing fee. 37 C.F.R.

83a
§ 202.3(b)(4) (effective January 24, 2011).1 To register
such a collection of published works, the works must
have been “included in a single unit of publication.”
Id. § 202.3(b)(4)(i)(A) “Publication” under the Copyright Act is defined as the initial “distribution” or “offering to distribute” the “work to the public by sale or
other transfer of ownership, or by rental, lease, or
lending.” 17 U.S.C. § 101. As we have explained, publication includes when copies of a work are “made
available to the general public … even if a sale or
other such disposition does not in fact occur.” *1199
Am. Vitagraph, Inc. v. Levy, 659 F.2d 1023, 1027
(9th Cir. 1981) (quoting 1 M. Nimmer & D. Nimmer,
Nimmer on Copyright § 4.04 at 4-18 to 4-19 (1978)).
The confined designs, however, were not placed in the
showroom for sale at the same time. And this court
has never previously addressed what it means to publish multiple works as a “single unit.”2
We conclude that the plain meaning of “single
unit” in § 202.3(b)(4)(i)(A) requires that the registrant
first published the collection of works in a singular,

The current version of § 202.3(b)(4) refers to registration “as
one work” rather than “as a single work.” We use the language
of the regulation’s version effective January 24, 2011, which is
the operative version in this case.
1

The Third Circuit discussed the single-unit requirement in a
published opinion, but that case provides no help to the matter
at hand. See Kay Berry, Inc. v. Taylor Gifts, Inc., 421 F.3d 199,
204-06 (3d Cir. 2005) (mentioning the single-unit registration
option and concluding the individual works need not be “related,” but not explaining what it means for works to be part of
a “single unit”).
2

84a
bundled collection. The relevant language of the regulation provides, in full:
For the purpose of registration on a single
application and upon payment of a single
registration fee, the following shall be considered a single work:
(A) In the case of published works: all copyrightable elements that are otherwise recognizable as self-contained works, that are included in a single unit of publication, and in
which the copyright claimant is the same[.]
37 C.F.R. § 202.3(b)(4)(i)(A) (emphasis added). The
plain meaning of the word “single” unsurprisingly
commands a sense of singularity. See Single, Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/single (defining “single” as “unaccompanied by others”). The plain meaning of “unit” is
no different. See Unit, Merriam-Webster Dictionary,
https://
www.merriamwebster.com/dictionary/unit
(defining “unit” as “a single thing, person, or group
that is a constituent of a whole”). Together, the two
words suggest that a “single unit of publication” refers
to some singular, bundled item that contains all
works identified in the registration.
[7]
The proverbial toolkit of statutory interpretation reinforces that a collection of published
works that make up “a single unit of publication”
must have been first published as part of some singular, bundled collection. The principle of noscitur a sociis—”it is known by its associates” or “birds of a
feather flock together”—instructs that words in

85a
statutes are given more precise content by neighboring words. See Life Techs. Corp. v. Promega Corp., ––
–– U.S. ––––, 137 S. Ct. 734, 740, 197 L.Ed.2d 33
(2017); see also Antonin Scalia & Bryan A. Garner,
Reading Law: The Interpretation of Legal Texts,
195-98 (2012) (describing noscitur a sociis and explaining its meaning as “birds of a feather flock together”). Here, § 202.3(b)(4)(i)(A) refers to “copyrightable elements that are otherwise recognizable as selfcontained works, which are included in a single unit
of publication.” (emphasis added). By referring to “elements” that are “otherwise … self-contained works,”
the regulation unambiguously contemplates that a
“single-unit of publication” does not cover separate
self-contained works, but instead covers the unification of such works that otherwise could be self-contained. 3
3

Even if the term “single unit” were ambiguous, we would hold
the term has the same meaning. If it were ambiguous, we would
look to how the U.S. Copyright Office has defined the term in its
internal manual, Compendium of Copyright Office Practices
(“Compendium”), which is entitled to Skidmore deference. Inhale, Inc. v. Starbuzz Tobacco, Inc., 755 F.3d 1038, 1041-42 &
n.2 (9th Cir. 2014). The Compendium details that the “single
unit of publication” option applies to a collection of published
works “first distributed to the public in the packaged unit.” Compendium § 1103. In other words, a single unit of publication refers to separately copyrightable works “that are physically bundled together and distributed to the public as a unit, such as a
board game containing instructions, a game board, and sculpted
playing pieces.” Id. The Compendium’s definition for “single
unit” thus aligns with what we ascribe as its unambiguous and
plain meaning.

86a
*1200 For these reasons, we hold that a collection
of works does not qualify as a “single unit of publication” unless all individual works of the collection were
first published as a singular, bundled unit. Therefore,
it is an inaccuracy for a registrant like Unicolors to
register a collection of works (such as the works identified in the ‘400 Registration) as a single-unit publication when the works were not initially published as
a singular, bundled collection. At a minimum, the confined works included in the ‘400 Registration were initially made available only to individual, exclusive
customers.
[8]
The undisputed evidence adduced at
trial further shows that Unicolors included the inaccurate information “with knowledge that it was inaccurate.” 17 U.S.C. § 411(b)(1) (A). And the knowledge
inquiry is not whether Unicolors knew that including
a mixture of confined and non-confined designs would
run afoul of the single-unit registration requirements;
the inquiry is merely whether Unicolors knew that
certain designs included in the registration were confined and, therefore, were each published separately
to exclusive customers. See Gold Value Int’l Textile,
Inc., 925 F.3d at 1147. At trial, Unicolors admitted to
having such knowledge.
Although Unicolors’s application for the ‘400 Registration contained known inaccuracies, that does not
mean H&M was entitled to judgment as a matter of
law. Rather, the district court was required to “request the Register of Copyrights to advise the court
whether the inaccurate information, if known, would
have caused the Register … to refuse registration.”
17 U.S.C. § 411(b)(2). Because the district court did

87a
not make the statutorily required request, we remand
the case so that the district court can complete this
requirement before deciding whether Unicolors’s registration is invalid, which would require dismissing
Unicolors’s claims and entering judgment in favor of
H&M.
III
For the foregoing reasons, we reverse the district
court’s entry of judgment and award of attorneys’ fees
in favor of Unicolors and remand to the district court
with instructions to submit an inquiry to the Register
of Copyrights asking whether the known inaccuracies
contained in the ‘400 Registration application detailed above, if known to the Register of Copyrights,
would have caused it to refuse registration. Because
the validity of Unicolors’s copyright registration is a
threshold issue, we do not consider here the many
other questions presented on appeal.4 In the event

As the Supreme Court has explained, the Copyright Act’s registration requirement is not a jurisdictional requirement; rather,
it is a claim-processing rule. Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 163-66, 130 S.Ct. 1237, 176 L.Ed.2d 18 (2010). That
does not change that Unicolors’s compliance with the Copyright
Act’s registration requirement is a threshold matter. As the Supreme Court recently clarified, a claim-processing rule can still
be “mandatory,” which means “that a court must enforce the rule
if a party ‘properly raise[s]’ it.” Fort Bend Cty. v. Davis, –––– U.S.
––––, 139 S. Ct. 1843, 1849, 204 L.Ed.2d 116 (2019) (alteration
in original) (quoting Eberhart v. United States, 546 U.S. 12, 19,
126 S.Ct. 403, 163 L.Ed.2d 14 (2005) (per curiam)). The Fort
Bend County Court even noted that “the Copyright Act’s requirement that parties register their copyrights” is one such mandatory claim-processing rule. Id. Here, the parties do not dispute
4

88a
*1201 the district court determines on remand—and
after submitting the necessary inquiry to the Register
of Copyrights—that Unicolors has a valid copyright
registration in EH101, this panel retains jurisdiction
over any subsequent appeal to review that determination and, if necessary, to decide remaining questions
presented in this appeal.
REVERSED AND REMANDED.

that H&M properly raised its challenge to Unicolors’s compliance with the Copyright Act’s registration requirement.

89a

EXHIBIT 4

90a
Staci Jennifer Riordan (SBN 232659)
Dale A. Hudson (SBN 81948)
Aaron M. Brian (SBN 213191)
NIXON PEABODY LLP
One California Plaza
300 S. Grand Avenue, Suite 4100
Los Angeles, CA 90071
Telephone: 213.629.6000
Facsimile: 213.629.6001
sriordan@nixonpeabody.com
dhudson@nixonpeabody.com
abrian@nixonpeabody.com
Attorneys for Defendant
H & M HENNES & MAURITZ LP
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H & M HENNES & MAURITZ L.P., a New York
Limited Partnership, and DOES 1-20, inclusive,
Defendants.
Case No.: 2:16-cv-02322 – AB – SK
Honorable André Birotte Jr.

91a
REQUEST FOR THE COURT
TO SUBMIT A REQUEST TO
THE REGISTER OF COPYRIGHTS PURSUANT TO 17
U.S.C. § 411(b)(2); [PROPOSED]
REQUEST TO THE COPYRIGHT REGISTER AND COPY
OF THE NINTH CIRCUIT ORDER FILED CONCURRENTLY
HEREWITH
Filed: April 5, 2016
Trial: December 5-7, 2017
In accordance with the Ninth Circuit’s order
dated May 29, 2020 and the Mandate issued August 17, 2020, H & M Hennes & Mauritz LP (“H&M
NY”) hereby respectfully requests the Court to submit
the [Proposed] Request to the Register of Copyrights
pursuant to 17 U.S.C. § 411(b)(2) (“Request”) in connection with Unicolors, Inc. (“Unicolors”) Copyright
Registration No. VA 1-700-400 (“the ‘400 Registration”), along with a copy of this filing and a copy of the
Ninth Circuit’s May 29, 2020 order. Dkt 298 & Dkt
297, Unicolors, Inc. v. H&M Hennes & Mauriiz LP,
959 F3d 1194 (9th Cir. 2020) (“Order”).
Specifically, H&M NY asks the Court to “request
the Register of Copyrights to advise the court whether
the inaccurate information [contained in the ‘400 Registration], if known, would have caused the Register
to refuse registration.” Order, 959 F.3d at 1200.
The Ninth Circuit held that the undisputed evidence adduced at trial showed that Unicolors

92a
registered a collection of thirty-one designs “as a single work” with its ‘400 Registration. Id. at 1198-1200.
The Ninth Circuit also held the undisputed evidence
demonstrates that these designs were not all “initially
published as a singular, bundled collection,” in violation of 37 C.F.R. § 202.3(b)(4). As recognized in the
Order, to register such a collection of published works
as a “single work,” the works must have been “included in a single unit of publication.” Order, 959 F.3d
at 1198-99.
The Ninth Circuit further held that the undisputed evidence at trial shows that Unicolors “included
the inaccurate information ‘with knowledge that it
was inaccurate.’” Id. at 1200 citing 17 U.S.C.
411(b)(1)(A).
Accordingly, as directed by the Ninth Circuit,
H&M NY respectfully requests that Court submit the
Request to the Copyright Register pursuant to
17 U.S.C. § 411(b)(2).
Dated: August 21, 2020

NIXON PEABODY LLP

By /s/ Staci Jennifer Riordan
Staci Jennifer Riordan
Dale A. Hudson
Aaron M. Brian
Attorneys for Defendant
H & M HENNES & MAURITZ LP

93a

EXHIBIT 1

94a
UNICOLORS, INC., a California
Corporation,
Plaintiff-Appellee,
v.
H&M HENNES & MAURITZ, L.P., a New York
limited partnership,
Defendant-Appellant.
Nos. 18-56253,18-56548
United States Court of Appeals, Ninth Circuit.
Submitted March 30, 20201 Pasadena, California
Filed May 29, 2020
Appeal from the United States District Court for the
Central District of California, Andre Birotte, Jr., District Judge, Presiding, D.C. No. 2:16-cv-02322-AB-SK
Staci Jennifer Riordan, Aaron Brian, and Dale A.
Hudson, Nixon Peabody LLP, Los Angeles, California, for Defendant-Appellant.
Stephen M. Doniger, Scott Alan Burroughs, and Trevor W. Barrett, Doniger / Burroughs, Venice, California, for Plaintiff-Appellee.

1

The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).

95a
Before: Carlos T. Bea and Bridget S. Bade, Circuit
Judges, and Jon P. McCalla,** District Judge.

**

The Honorable Jon P. McCalla, United States District Judge
for the Western District of Tennessee, sitting by designation.

96a
OPINION
BEA, Circuit Judge:
This is a copyright-infringement action brought
by Unicolors, Inc. (“Unicolors”), a company that creates designs for use on textiles and garments, against
H&M Hennes & Mauritz L.P. (“H&M”), which owns
domestic retail clothing stores. Unicolors alleges that
a design it created in 2011 is remarkably similar to a
design printed on garments that H&M began selling
in 2015. The heart of this case is the factual issue
whether H&M’s garments bear infringing copies of
Unicolors’s 2011 design. Presented with that question, a jury reached a verdict in favor of Unicolors,
finding the two works at least substantially similar.
On appeal, however, we must decide a threshold
*1196 issue whether Unicolors has a valid copyright
registration for its 2011 design, which is a precondition to bringing a copyright-infringement suit.
I
Unicolors’s business model is to create artwork, copyright it, print the artwork on fabric, and market the
designed fabrics to garment manufacturers. Sometimes, though, Unicolors designs “confined” works,
which are works created for a specific customer. This
customer is granted the right of exclusive use of the
confined work for at least a few months, during which
time Unicolors does not offer to sell the work to other
customers. At trial, Unicolors’s President, Nader
Pazirandeh, explained that customers “ask for privacy” for confined designs, in respect of which Unicolors holds the confined designs for a “few months” from

97a
other customers. Mr. Pazirandeh added that his staff
follows instructions not to offer confined designs for
sale to customers generally, and Unicolors does not
even place confined designs in its showroom until the
exclusivity period ends.
In February 2011, Unicolors applied for and received a copyright registration from the U.S. Copyright Office for a two-dimensional artwork called
EH101, which is the subject of this suit. Unicolors’s
registration—No. VA 1-770-400 (“the ‘400 Registration”)—included a January 15, 2011 date of first publication. The ‘400 Registration is a “single-unit registration” of thirty-one separate designs in a single registration, one of which designs is EH101. The name
for twenty-two of the works in the ’400 Registration,
like EH101, have the prefix “EH”; the other nine
works were named with the prefix “CEH.” Hannah
Lim, a Unicolors textile designer, testified at trial
that the “EH” designation stands for “January 2011,”
meaning these works were created in that month. Ms.
Lim added that a “CEH” designation means a work
was designed in January 2011 but was a “confined”
work.
When asked about the ‘400 Registration at trial,
Mr. Pazirandeh testified that Unicolors submits collections of works in a single copyright registration “for
saving money.” Mr. Pazirandeh added that the first
publication date of January 15, 2011 represented
“when [Unicolors] present[ed] [the designs] to [its]
salespeople.” But these salespeople are Unicolors employees, not the public. And the presentation took
place at a company member-only meeting. Following
the presentation, according to Mr. Pazirandeh,

98a
Unicolors would have placed non-confined designs in
Unicolors’s showroom, making them “available for
public viewing” and purchase. Confined designs, on
the other hand, would not be placed in Unicolors’s
showroom for the public at large to view.
H&M owns and operates hundreds of clothing retail stores in the United States. In fall 2015, H&M
stores began selling a jacket and skirt made of fabric
bearing an artwork design named “Xue Xu.” Upon discovering H&M was selling garments bearing the Xue
Xu artwork, Unicolors filed this action for copyright
infringement, alleging that H&M’s sales infringed
Unicolors’s copyrighted EH101 design. Unicolors alleges that the two works are “row by row, layer by
layer” identical to each other.
The case proceeded to trial, at which a jury returned a verdict in Unicolors’s favor, finding Unicolors owned a valid copyright in the EH101 artwork,
H&M infringed on that copyright by selling the contested skirt and jacket, and H&M’s infringement was
willful. The jury awarded Unicolors $817,920 in profit
disgorgement damages and $28,800 in lost profits.
*1197 H&M filed a renewed motion for judgment
as a matter of law, or in the alternative, for a new
trial. The district court denied H&M’s renewed motion for judgment as a matter of law, but conditionally
granted H&M’s motion for a new trial subject to Unicolors accepting a remittitur of damages to
$266,209.33. Unicolors accepted the district court’s
remittitur and the district court entered judgment
against H&M accordingly. Unicolors subsequently
moved for attorneys’ fees and costs, which the district

99a
court awarded in the amounts of $508,709.20 and
$5,856.27, respectively. This appeal of both the entry
of judgment and award of attorneys’ fees in favor of
Unicolors followed.
II
[1]
[2] “To establish infringement, two elements must be proven: (1) ownership of a valid copyright, and (2) copying of constituent elements of the
work that are original.” Feist Publ’ns, Inc. v. Rural
Tel. Serv. Co., 499 U.S. 340, 361, 111 S.Ct. 1282, 113
L.Ed.2d 358 (1991). As to ownership, a registration
certificate issued by the U.S. Register of Copyrights
constitutes prima facie evidence of the validity of a
plaintiff’s copyright. 17 U.S.C. § 410(c).
[3]
Although proper registration benefits
copyright-infringement plaintiffs by imbuing their
copyright with a presumption of validity, proper registration is also a burden of sorts, as it is “a precondition to filing an action for copyright infringement.”
Gold Value Int’l Textile, Inc. v. Sanctuary Clothing,
LLC, 925 F.3d 1140, 1144 (9th Cir. 2019); see
17 U.S.C. § 411(a). Proper registration, of course, is
not a precondition to copyright protection. 17 U.S.C.
§ 408(a). But the Copyright Act expressly prohibits
copyright owners from bringing infringement actions
without first properly registering their work. Id.
§ 411(a). Whether a copyright is properly registered is
rarely disputed, because the mere receipt of a registration certificate issued by the Register of Copyrights ordinarily satisfies the Copyright Act’s registration requirement. Id. § 411(b)(1). But possession of
a registration certificate does not satisfy the

100a
Copyright Act’s registration requirement if the registrant secured the registration by knowingly including
inaccurate information in the application for copyright registration that, if known by the Register of
Copyrights, would have caused it to deny registration.
Id.
[4]
In practice, once a defendant alleges
that (1) a plaintiff’s certificate of registration contains
inaccurate information; (2) “the inaccurate information was included on the application for copyright
registration”; and (3) the inaccurate information was
included on the application “with knowledge that it
was inaccurate,” a district court is then required to
submit a request to the Register of Copyrights “to advise the court whether the inaccurate information, if
known, would have caused [it] to refuse registration.”
Id. § 411(b)(1)Q(2). In other words, courts may not
consider in the first instance whether the Register of
Copyrights would have refused registration due to the
inclusion of known inaccuracies in a registration application.
Here, following the unfavorable verdict, H&M
filed a renewed motion for judgment as a matter of
law that contended, in relevant part, that Unicolors’s
‘400 Registration covering the EH101 work was invalid because Unicolors secured the registration by including known inaccuracies in its application for registration. In particular, H&M noted that Unicolors
used a single copyright registration to register thirtyone separate works, one of which was EH101. But to
register a collection of works as a “single unit” as Unicolors did, H&M maintained that the works must
have been first sold or offered for sale in *1198 some

101a
integrated manner. And because the undisputed evidence adduced at trial showed that Unicolors included in the ‘400 Registration at least nine confined
works that were sold separately and exclusively to individual customers, H&M argued that the collection
of works identified in the ‘400 Registration were not
first sold together and at the same time. In turn,
H&M contended the district court should find the ‘400
Registration invalid and enter judgment in favor of
H&M.
The district court rejected H&M’s argument for
invalidating the ‘400 Registration for two reasons.
First, the district court held that invalidation required a showing at trial that Unicolors intended to
defraud the Copyright Office, and found no evidence
introduced at trial showed such an intent. Second, the
district court held that although Unicolors may have
marketed and sold various works included in the ‘400
Registration separately, that did not mean all of the
works were not first made available to the public—
i.e., published—on the same day.
[5]
Both the district court’s reasons for
denying H&M judgment as a matter of law are
flawed. To be sure, several opinions from this Court
have implied that there is an intent-to-defraud requirement for registration invalidation. See L.A.
Printex Indus., Inc. v. Aeropostale, Inc., 676 F.3d 841,
853-54 (9th Cir. 2012); see also Lamps Plus, Inc. v. Seattle Lighting Fixture Co., 345 F.3d 1140, 1145 (9th
Cir. 2003) (stating that inaccuracies “do not invalidate a copyright … [unless] the claimant intended to
defraud the Copyright Office by making the misstatement”) (quoting Urantia Found. v. Maaherra, 114

102a
F.3d 955, 963 (9th Cir. 1997)); Three Boys Music Corp.
v. Bolton, 212 F.3d 477, 486-87 (9th Cir. 2000) (same),
overruled on other grounds by Skidmore v. Led Zeppelin, 952 F.3d 1051 (9th Cir. 2020) (en banc); Cooling
Sys. & Flexibles, Inc. v. Stuart Radiator, Inc., 777
F.2d 485, 487 (9th Cir. 1985) (“Absent fraud, a misstatement or clerical error in the registration application … will not invalidate the copyright …. ”) (internal quotation marks omitted), overruling on other
grounds recognized by Apple Computer, Inc. v. Microsoft Corp., 35 F.3d 1435, 1448 (9th Cir. 1994); 2 M.
Nimmer & D. Nimmer, Nimmer on Copyright
§ 7.20[B][1] (2019). But we recently clarified that
there is no such intent-to-defraud requirement. See
Gold Value Int’l Textile, Inc., 925 F.3d at 1147
(9th Cir. 2019).
[6]
The district court further erred in concluding that Unicolors’s application for copyright registration did not contain inaccuracies despite the inclusion of confined designs because single-unit registration requires merely that all works identified in
the application be published on the same date. Under
the Copyright Act, an author may register a collection
of published works “as a single work,” so that the registrant need pay only one filing fee. 37 C.F.R.
§ 202.3(b)(4) (effective January 24, 2011).1 To register
such a collection of published works, the works must
have been “included in a single unit of publication.”
The current version of § 202.3(b)(4) refers to registration “as
one work” rather than “as a single work.” We use the language
of the regulation’s version effective January 24, 2011, which is
the operative version in this case.
1

103a
Id. § 202.3(b)(4)(i)(A) “Publication” under the Copyright Act is defined as the initial “distribution” or “offering to distribute” the “work to the public by sale or
other transfer of ownership, or by rental, lease, or
lending.” 17 U.S.C. § 101. As we have explained, publication includes when copies of a work are “made
available to the general public … even if a sale or
other such disposition does not in fact occur.” *1199
Am. Vitagraph, Inc. v. Levy, 659 F.2d 1023, 1027
(9th Cir. 1981) (quoting 1 M. Nimmer & D. Nimmer,
Nimmer on Copyright § 4.04 at 4-18 to 4-19 (1978)).
The confined designs, however, were not placed in the
showroom for sale at the same time. And this court
has never previously addressed what it means to publish multiple works as a “single unit.”2
We conclude that the plain meaning of “single
unit” in § 202.3(b)(4)(i)(A) requires that the registrant
first published the collection of works in a singular,
bundled collection. The relevant language of the regulation provides, in full:
For the purpose of registration on a single
application and upon payment of a single
registration fee, the following shall be considered a single work:

The Third Circuit discussed the single-unit requirement in a
published opinion, but that case provides no help to the matter
at hand. See Kay Berry, Inc. v. Taylor Gifts, Inc., 421 F.3d 199,
204-06 (3d Cir. 2005) (mentioning the single-unit registration
option and concluding the individual works need not be “related,” but not explaining what it means for works to be part of
a “single unit”).
2

104a
(A) In the case of published works: all copyrightable elements that are otherwise recognizable as self-contained works, that are included in a single unit of publication, and in
which the copyright claimant is the same[.]
37 C.F.R. § 202.3(b)(4)(i)(A) (emphasis added). The
plain meaning of the word “single” unsurprisingly
commands a sense of singularity. See Single, Merriam-Webster Dictionary, https://www.merriam-webster.com/dictionary/single (defining “single” as “unaccompanied by others”). The plain meaning of “unit” is
no different. See Unit, Merriam-Webster Dictionary,
https://
www.merriamwebster.com/dictionary/unit
(defining “unit” as “a single thing, person, or group
that is a constituent of a whole”). Together, the two
words suggest that a “single unit of publication” refers
to some singular, bundled item that contains all
works identified in the registration.
[7]
The proverbial toolkit of statutory interpretation reinforces that a collection of published
works that make up “a single unit of publication”
must have been first published as part of some singular, bundled collection. The principle of noscitur a sociis—”it is known by its associates” or “birds of a
feather flock together”—instructs that words in statutes are given more precise content by neighboring
words. See Life Techs. Corp. v. Promega Corp., ––––
U.S. ––––, 137 S. Ct. 734, 740, 197 L.Ed.2d 33 (2017);
see also Antonin Scalia & Bryan A. Garner, Reading
Law: The Interpretation of Legal Texts, 195-98 (2012)
(describing noscitur a sociis and explaining its meaning as “birds of a feather flock together”). Here,
§ 202.3(b)(4)(i)(A) refers to “copyrightable elements

105a
that are otherwise recognizable as self-contained
works, which are included in a single unit of publication.” (emphasis added). By referring to “elements”
that are “otherwise … self-contained works,” the regulation unambiguously contemplates that a “singleunit of publication” does not cover separate self-contained works, but instead covers the unification of
such works that otherwise could be self-contained. 3
*1200 For these reasons, we hold that a collection
of works does not qualify as a “single unit of publication” unless all individual works of the collection were
first published as a singular, bundled unit. Therefore,
it is an inaccuracy for a registrant like Unicolors to
register a collection of works (such as the works identified in the ‘400 Registration) as a single-unit publication when the works were not initially published as
a singular, bundled collection. At a minimum, the
3

Even if the term “single unit” were ambiguous, we would hold
the term has the same meaning. If it were ambiguous, we would
look to how the U.S. Copyright Office has defined the term in its
internal manual, Compendium of Copyright Office Practices
(“Compendium”), which is entitled to Skidmore deference. Inhale, Inc. v. Starbuzz Tobacco, Inc., 755 F.3d 1038, 1041-42 &
n.2 (9th Cir. 2014). The Compendium details that the “single
unit of publication” option applies to a collection of published
works “first distributed to the public in the packaged unit.” Compendium § 1103. In other words, a single unit of publication refers to separately copyrightable works “that are physically bundled together and distributed to the public as a unit, such as a
board game containing instructions, a game board, and sculpted
playing pieces.” Id. The Compendium’s definition for “single
unit” thus aligns with what we ascribe as its unambiguous and
plain meaning.

106a
confined works included in the ‘400 Registration were
initially made available only to individual, exclusive
customers.
[8]
The undisputed evidence adduced at
trial further shows that Unicolors included the inaccurate information “with knowledge that it was inaccurate.” 17 U.S.C. § 411(b)(1) (A). And the knowledge
inquiry is not whether Unicolors knew that including
a mixture of confined and non-confined designs would
run afoul of the single-unit registration requirements;
the inquiry is merely whether Unicolors knew that
certain designs included in the registration were confined and, therefore, were each published separately
to exclusive customers. See Gold Value Int’l Textile,
Inc., 925 F.3d at 1147. At trial, Unicolors admitted to
having such knowledge.
Although Unicolors’s application for the ‘400 Registration contained known inaccuracies, that does not
mean H&M was entitled to judgment as a matter of
law. Rather, the district court was required to “request the Register of Copyrights to advise the court
whether the inaccurate information, if known, would
have caused the Register … to refuse registration.”
17 U.S.C. § 411(b)(2). Because the district court did
not make the statutorily required request, we remand
the case so that the district court can complete this
requirement before deciding whether Unicolors’s registration is invalid, which would require dismissing
Unicolors’s claims and entering judgment in favor of
H&M.

107a
III
For the foregoing reasons, we reverse the district
court’s entry of judgment and award of attorneys’ fees
in favor of Unicolors and remand to the district court
with instructions to submit an inquiry to the Register
of Copyrights asking whether the known inaccuracies
contained in the ‘400 Registration application detailed above, if known to the Register of Copyrights,
would have caused it to refuse registration. Because
the validity of Unicolors’s copyright registration is a
threshold issue, we do not consider here the many
other questions presented on appeal.4 In the event
*1201 the district court determines on remand—and
after submitting the necessary inquiry to the Register
of Copyrights—that Unicolors has a valid copyright
registration in EH101, this panel retains jurisdiction
over any subsequent appeal to review that

As the Supreme Court has explained, the Copyright Act’s registration requirement is not a jurisdictional requirement; rather,
it is a claim-processing rule. Reed Elsevier, Inc. v. Muchnick, 559
U.S. 154, 163-66, 130 S.Ct. 1237, 176 L.Ed.2d 18 (2010). That
does not change that Unicolors’s compliance with the Copyright
Act’s registration requirement is a threshold matter. As the Supreme Court recently clarified, a claim-processing rule can still
be “mandatory,” which means “that a court must enforce the rule
if a party ‘properly raise[s]’ it.” Fort Bend Cty. v. Davis, –––– U.S.
––––, 139 S. Ct. 1843, 1849, 204 L.Ed.2d 116 (2019) (alteration
in original) (quoting Eberhart v. United States, 546 U.S. 12, 19,
126 S.Ct. 403, 163 L.Ed.2d 14 (2005) (per curiam)). The Fort
Bend County Court even noted that “the Copyright Act’s requirement that parties register their copyrights” is one such mandatory claim-processing rule. Id. Here, the parties do not dispute
that H&M properly raised its challenge to Unicolors’s compliance with the Copyright Act’s registration requirement.
4

108a
determination and, if necessary, to decide remaining
questions presented in this appeal.
REVERSED AND REMANDED.

109a
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC., a California Corporation,
Plaintiff,
vs.
H&M HENNES & MAURITZ L.P., a New York Limited Partnership, and DOES 1-20, inclusive,
Defendants.
Case No.: 2:16-cv-02322 – AB – SK
Honorable André Birotte Jr.
[PROPOSED] REQUEST TO THE
REGISTER OF COPYRIGHTS
PURSUANT TO 17 U.S.C.
§ 411(b)(2)
Filed: April 5, 2016
Trial: December 5-7, 2017
REQUEST TO THE REGISTER OF COPYRIGHTS
PURSUANT 17 U.S.C. § 411(B)(2)
Unicolors, Inc. (“Unicolors”) brought this action
for copyright infringement against defendant, H & M
Hennes & Mauritz LP (“H&M NY”). The Complaint
alleges that Unicolors created and owns a valid copyright in a two-dimensional textile design, which is

110a
titled EH101 (“EH101 Design”). Unicolors contends
that EH101 is registered as a part of a collection of
published works under Copyright Registration No.
VA 1-770-400 (“the ‘400 Registration”) that were all
initially first published together on Saturday, January 15, 2011.
In response to the claims, H & M NY challenged
the validity of the ‘400 Registration. H&M NY contends that Unicolors knowingly submitted inaccurate
information when Unicolors filed its application for
the ‘400 Registration. Based on this premise, H&M
NY argues that, but for the submission of this information, the Register of Copyrights would have refused registration.
In a related order, the United States Court of Appeals for the Ninth Circuit has determined that Unicolors knowingly submitted inaccurate information in
connection with its application for the ‘400 Registration (“Ninth Circuit Order”), attached hereto as Exhibit 1. Specifically, the Ninth Circuit Order held that
the thirty-one designs covered by the ‘400 Registration did not qualify as “single unit of publication” because all of the individual works of the collection
“were not initially published as a singular, bundled
unit. Unicolors, Inc. v. H&M Hennes & Maurtitz LP,
959 F.3d 1194, 1200 (9th Cir. 2020) (“Order”).
The Ninth Circuit’s Order further concluded that
the ‘400 Registration contained both “confined” works
and regular works, in violation of 37 C.F.R.
§ 202.3(b)(4). Id. This is apparent from the face of the
‘400 Registration once Unicolors’ naming protocol is
understood. The name of twenty-two of the works in

111a
the ‘400 Registration, like EH101, have the prefix
“EH;” the other nine works were named with the prefix “CEH.” Id. at 1196. Unicolors testified at trial that
the “EH” designation stands for January 2011” and
“CEH” “means a work was designed in January 2011
but was a confined work.” Id. A confined work is one
that Unicolors “made available only to individual, exclusive customers” and thus not initially published
concurrently with the other twenty-two designs. Id. at
1200. Accordingly, all thirty-one designs in the collection were not first published together as a singular
bundled unit on January 15, 2011. Id.
In light of the findings in the Ninth Circuit Order,
pursuant to 17 U.S.C. § 411(b)(2), the Court requests
a response by the Register of Copyrights to the following inquiry:
Would the Register of Copyrights have rejected Unicolors’ Registration No. VA-1-770400 for 2-dimensional artwork (“the ‘400 Application”) if it had known that Unicolors included known inaccuracies for the dates of
first publication in an attempt to save application fees? Specifically, would the Register of
Copyrights have rejected the “400 Application
if, at the time of the application, the Register
of Copyrights had known that, although
Plaintiff stated that all thirty-one works were
first published on January 15, 2011, at least
nine of the thirty-one works were not first
published on that date.
The Court requests a response to these matters on
or before ___, 2020. The Clerk of the Court shall send

112a
this Request, including Exhibit 1, to the Register of
Copyrights.
IT IS SO ORDERED.
Dated:
ANDRÉ BIROTTE JR.
United States District Judge

113a

EXHIBIT 5

114a
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ LP; et al.,
Defendants.
Case No.: 2:16-cv-02322 AB (SKx)
Honorable André Birotte, Jr. Presiding
NOTICE OF LODGING OF [PROPOSED] 17 U.S.C. § 411(b)(2) REQUEST TO THE REGISTER OF
COPYRIGHTS
TO THE HONORABLE COURT, ALL PARTIES, AND THEIR ATTORNEYS OF RECORD:

115a
PLEASE TAKE NOTICE that Plaintiff Unicolors,
Inc. hereby submits its Notice of Lodging of [Proposed] 17 U.S.C. § 411(b)(2) Request to The Register
of Copyrights regarding Registration No. VA 1-770400. The lodged [Proposed] 17 U.S.C. § 411(b)(2) Request to The Register of Copyrights is attached hereto
as Exhibit A.
Respectfully submitted,
Dated: August 26, 2020
By: /s/ Stephen M. Doniger
Stephen M. Doniger, Esq.
Scott Alan Burroughs, Esq.
Trevor W. Barrett, Esq.
DONIGER / BURROUGHS
Attorneys for Plaintiff
UNICOLORS, INC.

116a

EXHIBIT A

117a
Stephen M. Doniger (SBN 179314)
stephen@donigerlawfirm.com
Scott Alan Burroughs (SBN 235718)
scott@donigerlawfirm.com
DONIGER / BURROUGHS
603 Rose Avenue
Venice, California 90291
Telephone: (310) 590-1820
Attorneys for Plaintiff
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
UNICOLORS, INC.,
Plaintiff,
vs.
H&M HENNES & MAURITZ LP; et al.,
Defendants.
Case No.: 2:16-cv-02322 AB (SKx)
Honorable André Birotte, Jr. Presiding
[PROPOSED] REQUEST TO THE
REGISTER OF COPYRIGHTS
PURSUANT TO 17 U.S.C.
§ 411(b)(2)

118a
REQUEST TO THE REGISTER OF COPYRIGHTS
This case is a copyright infringement action involving claims by Plaintiff, Unicolors, Inc., that Defendant H&M Hennes & Mauritz LP sold product
bearing an unauthorized copy of Unicolors’ artwork
titled EH101. At trial a jury unanimously found H&M
liable for willful copyright infringement. H&M, as
part of the trial proceedings, raised putative issues regarding the validity of Unicolors’ registration for
EH101. This request follows.
Unicolors registered EH101 with the Copyright
Office as part of Registration No. VA 1-770-400 (“the
Registration”), with an effective date of February 14,
2011. The Ninth Circuit has ordered that this Court,
pursuant to 17 U.S.C. § 411(b)(2), advise the Register
of Copyrights of the inaccurate information alleged,
and request an opinion as to whether the alleged inaccurate information, if known, would have caused it
to refuse registration.
17 U.S.C. § 411(b) provides, in relevant part:
(1) A certificate of registration satisfies the
requirements of this section and section 412,
regardless of whether the certificate contains any inaccurate information, unless—
(A) the inaccurate information was included on the application for copyright
registration with knowledge that it was
inaccurate; and
(B) the inaccuracy of the information, if
known, would have caused the Register
of Copyrights to refuse registration.

119a
(2) In any case in which inaccurate information described under paragraph (1) is alleged, the court shall request the Register of
Copyrights to advise the court whether the
inaccurate information, if known, would
have caused the Register of Copyrights to refuse registration.
Based on the evidence presented by the parties,
the following facts relate to the alleged inaccuracy:
1. The Registration covers 31 floral designs,
one of which is EH101, the design at issue
in this case.
2. The Registration lists the date of first publication as January 15, 2011.
3. The Registration was applied for and issued on or about February 14, 2011.
4. Per the testimony of Unicolors’ President,
January 15, 2011 represented “when [Unicolors] present[ed] [the designs] to [its]
salespeople.” (SER 407). Unicolors’ President further stated that all designs in the
collection were presented as a group, as
“[t]hat’s always our practice.” (Id). Following the presentation, according to Mr.
Pazirandeh, Unicolors would have placed
non-confined designs in Unicolors’ showroom, making them “available for public
viewing” and purchase. (SER 294).

120a
5. Of the 31 designs on the Registration, 22
are identified with names starting with
the prefix “EH,” (including “EH101”—the
design at issue in the case), and the other
nine are identified with names starting
with the prefix “CEH.”
6. Unicolors designer Hannah Lim testified
that the prefix “CEH” indicates that the
design has been “confined, which means
this particular design was given exclusively to certain customer” for a limited period of “anywhere from two months to six
months,” during which time Unicolors
does not offer to sell it to other customers.
(SER 349).
7. Unicolors’ President testified that sometimes designs are confined because they
are created for a specific customer, and
other times designs become confined after
a customer requests exclusivity by asking
Unicolors to “please take this out of your
line for at least two, three months.”
(SER 293).
8. Contrary evidence was presented as to
whether confined designs are made available to customers for viewing. According to
Ms. Lim, although confined designs won’t
be produced for other customers during
the period of confinement, Unicolors will
still show it to other customers “because
after that limited confinement time period,
other customers could purchase that

121a
design.” (SER 350). On the other hand,
Unicolors’ President testified that confined designs that are created for a particular customer should not be placed in the
showroom or shown to other customers
during the period of confinement, but some
salespersons may be “sneaky” and go to
the design room to take those designs to
show other customers. (SER 291-293).
No evidence was presented as to how or when the
“CEH” designs listed on the Registration became
confined, i.e., whether they were confined before the
January 15, 2011 date of first publication or at the
request of customers after that date.
To assist the Register in its review, the relevant
pages of testimony reflecting the facts above are attached to this Request as Exhibit 1.
Had the Register known of these facts, would it
have (1) rejected the registration in its entirety,
(2) accepted the registration provided Unicolors removed the “CEH” designs, (3) accepted the registration provided Unicolors limited it to the EH101 design, (4) allowed correction of the registration via a
Form CA to remove the “CEH” designs, or (5) taken
some other action?
Respectfully submitted,
Dated: August 31, 2020
By: /s/ Stephen M. Doniger
Stephen M. Doniger, Esq.

122a
Scott Alan Burroughs, Esq.
Trevor W. Barrett, Esq.
DONIGER / BURROUGHS
Attorneys for Plaintiff
UNICOLORS, INC.

123a

EXHIBIT 1

124a
Q. Is it less money to apply for a group registration?
A. Of course.
Q. And do you know how these designs were
first published?
A. What do you mean?
Q. Well, it says the date of first publication is
January 15, 2011. I’m asking how this group
of designs were first published together.
A. Oh, that’s when we present it to our salespeople.
Q. And you present these as a group, these floral designs and ethnic designs go to the public
as a group?
A. That’s always our practice.
Q. And how is that done?
A. In a sales meeting. In the sales meeting,
my designers come. And my designers come, I
come, and they present it to the salespeople
that this is the group that we believe it’s
working with this colorations for that season
or for that month.
Q. Who do the salespeople work for?
A. For Unicolors.

125a
Q. Unicolors salespeople?
A. Yes.
Q. Okay. So you present these designs as a
group to your salespeople and, according to
this, that was done on January 15th, 2011; is
that correct?
A. That’s correct, yes.
office, I have almost 15,000 square feet of sampling
room.
BY MR. BRIAN:
Q Fifteen or 50?
A One five.
Q One five. That’s still a lot.
A 15,000. It’s a huge place, three times than
this place.
Q I am going to ask you to look at Exhibit
Number 32. This has been offered into evidence, Your Honor.
THE WITNESS: Yes.
BY MR. BRIAN:
Q We talked about this a little bit yesterday.
This is the certificate of registration for a
group of designs, including the design we’re
here about today, EH101.

126a
We talked about the date of first publication,
January 15th, 2011. We talked about the type
of meeting you would have held to share this
with your sales staff and other people.
I think Mr. Burroughs had you testify that
this group of designs would have gone into
your showroom and have been available for
public viewing. Correct?
A Yes.
Q If you look at the fourth design under Floral, we have EH103, 105, 111, and then we
have CEH113.
A Yes.
Q And do you remember during your deposition we talked about—I’m sorry. What does
CEH mean in front of—if you see here Number 113.
A Well, EH is the same, 2011 January. C
stand for confined, which means this particular design was given exclusivity to certain
customer. And that exclusivity period isn’t
very long; it could be anywhere from two
months to six months. Within those time period it’s exclusive to that particular client.
Q And you see in Exhibit 32 there is a lot of
CEHs; right? There is CEH113.
A Yes.

127a
Q There is CEH146?
A Yes.
Q There is CEH147.
A Yes.
Q There is CEH117—I’m sorry—175?
A Yes.
Q And there is CEH182?
A Yes.
Q There is CEH194?
A Yes.
Q There is CEH109?
A Yes.
Q There’s CEH, confined EH116?
BY MR. BRIAN:
Q Does Unicolors do anything internally to
designate designs that are not supposed to be
sold to the public? I mean a designation on
that design.
A We try our best to tell in every meeting that
just an honor code to keep this privacy. And
they’re doing it. I haven’t had any incident.

128a
I had incidents before, that one of my customers called me and said, “Could you please take
this out of your line for at least two, three
months?” Which I did it. That was a problem
I had.
But, no. We try—and most of—I mean, they’re
trying. I have so many designs. I mean, sometimes it happens, but usually we try our best
to not—
Q So you advise the salespeople and the rest
of the staff not to sell publicly, but that’s—you
trust them?
MR. BURROUGHS: Objection. Relevance.
Cumulative and nonsensical.
THE COURT: Overruled.
THE WITNESS: My design room manager—I
have a manager for my design room. He—
when we create a design for the specific customers, he’s the one who is holding those designs back, and he doesn’t give it to the—he
doesn’t put it on the shelf.
If you come to my design room, I have—to my
A Yes.
Q So there’s about nine designs as part of this
copyright registration that are confined designs; right?
A Yes.

129a
MS. RIORDAN: No further questions, Your
Honor.
THE COURT: Anything further, Mr. Burroughs or Mr. Doniger?
MR. DONIGER: Very briefly, Your Honor.
CROSS-EXAMINATION
BY MR. DONIGER:
Q Miss Lim, you told the jury that a confined
design, if I understood you correctly, won’t be
sold to another customer for—won’t be produced for another customer for a limited period of time; correct?
A That’s correct. We don’t sell it to other customer within that period, but we do still show
it.
Q What do you mean, you “still show it”?
A Well, that is because after that limited confined time period, other customers could purchase that design.
Q So looking at the registration certificate,
does the fact that some of these designs are
confined—let me ask it this way: Does the fact
that some of the designs created in the first
couple weeks of January of 2015—does the
fact that some of those designs were confined
and some were not confined—is that

130a
inconsistent to your understanding; Is that
accurate?
A That’s fair, yes.
Q Is there a manager of the design room that
would take that request and pair it up with an
appropriate designer?
A I have a responsible person in my design
room, that she’s overlook all of my designers.
I really don’t talk to her that—how you manage this. I just see the result that it’s running
well. So I’m trusting in her judgment.
Q What does Unicolors do internally to make
sure that designer knows this is a custom design for this customer only?
A When the manager—or when the e-mail
comes from the customer that I want tropical
design with this color palettes, that’s indicating that it’s for that customer.
Q And would the designer see that e-mail or
be told that information, that this is just for
Company A or Company B? Or do you know
how the designer is made aware that this is a
special request?
A That, I don’t know. I’m not aware.
Q And then, once the design is finished, how
does Unicolors keep that design from going
out into the showroom or keep that design

131a
from being put in a salesperson’s hands and
sold to the public—or offered to the public?
A The design belongs to us; so we can offer to
the public. But out of the courtesy to my customers, when they ask for privacy for that design, we try to hold it for few months.
But I have salespeople who are very sneaky.
They go to my design room and they just take
the designs and—but it belongs to us because
we have the right for it. We don’t sell the right
to any of my customers.
Q Okay. So you have an agreement with the
customer that we’re making this just for you,
and you try to honor that agreement internally; but salespeople might get their hands
on the design and run out with it and try to
make sales? Is that accurate?
MR. BURROUGHS: Your Honor, objection.
Compound. Cumulative and relevance.
THE COURT: Sustained.
THE WITNESS: I don’t—
THE COURT: You don’t answer.
Next question.
BY MR. BRIAN:
Q Do the customers that request you make
them a design know that your salespeople

132a
might be selling that design to other members
of the public?
MR. BURROUGHS: Objection. Cumulative.
Relevance. Calls for speculation.
THE COURT: Sustained.
BY MR. BRIAN:
Q Does Unicolors do anything internally to
designate designs that are not supposed to be
sold to the public? I mean a designation on
that design.
A We try our best to tell in every meeting that
just an honor code to keep this privacy. And
they’re doing it. I haven’t had any incident.
I had incidents before, that one of my customers called me and said, “Could you please take
this out of your line for at least two, three
months?” Which I did it. That was a problem
I had.
But, no. We try—and most of—I mean, they’re
trying. I have so many designs. I mean, sometimes it happens, but usually we try our best
to not—
Q So you advise the salespeople and the rest
of the staff not to sell publicly, but that’s—you
trust them?
MR. BURROUGHS: Objection. Relevance.
Cumulative and nonsensical.

133a
THE COURT: Overruled.
THE WITNESS: My design room manager—I
have a manager for my design room. He—
when we create a design for the specific customers, he’s the one who is holding those designs back, and he doesn’t give it to the—he
doesn’t put it on the shelf.
If you come to my design room, I have—to my

134a
FILED
AUG 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
UNICOLORS, INC.,
a California
Corporation
Plaintiff-Appellee,

Nos.

18-56253
18-56548

D.C. No.
2:16-cv-02322-AB-SK
Central District of California,
Los Angeles

vs.
H&M HENNES &
MAURITZ, L.P., a
New York Limited
Partnership,
Defendant-Appellant.
Before: BEA and BADE, Circuit Judges, and
McCALLA,1 District Judge.

The Honorable Jon P. McCalla, United States District Judge
for the Western District of Tennessee, sitting by designation.
1

135a
Judges Bea, Bade, and McCalla vote to deny the
petition for panel rehearing. Judge Bade votes to deny
the petition for rehearing en banc, and Judges Bea
and McCalla so recommend.
The full court has been advised of the petition for
rehearing en banc, and no judge has requested a vote
on whether to rehear the matter en banc. Fed. R. App.
P. 35.
The petition for panel rehearing and rehearing en
banc is therefore
DENIED.

